<html>
<title> - FAILURE TO PROTECT CHILD SAFETY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                    FAILURE TO PROTECT CHILD SAFETY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2004

                               __________

                           Serial No. 108-61

                               __________

         Printed for the use of the Committee on Ways and Means






                 U.S. GOVERNMENT PRINTING OFFICE

99-679                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of June 10, 2004, announcing the hearing................     2

                               WITNESSES

Maryland Department of Human Resources, Hon. Christopher J. 
  McCabe.........................................................     7
Baltimore City Department of Social Services, Floyd R. Blair.....    10
Baltimore City Health Department, Peter Beilenson................    17
University of Maryland, School of Social Work, Center for 
  Families, Diane DePanfilis.....................................    22

                       SUBMISSIONS FOR THE RECORD

Cook, Theresa S., Santa Clara, CA, statement.....................    42
Fight Crime: Invest in Kids, statement...........................    47
Justice for Children, Eileen King, letter........................    50
Zero to Three: National Center for Infants, Toddlers and 
  Families, Matthew E. Melmed, statement.........................    51


                    FAILURE TO PROTECT CHILD SAFETY

                              ----------                              


                        THURSDAY, JUNE 17, 2004

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 4:00 p.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
June 10, 2004

                      Herger Announces Hearing on

                    Failure to Protect Child Safety

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on a recent failure to protect child 
safety. The hearing will take place on Thursday, June 17, 2004, in room 
B-318 Rayburn House Office Building, beginning at 4:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include State and local officials and outside experts 
familiar with the child welfare system in Baltimore, Maryland.
      

BACKGROUND:

      
    News accounts have documented events leading to the recent death of 
twin infant girls in Baltimore, Maryland. These newborns were released 
to their mother, a foster care runaway previously involved with child 
welfare authorities. The circumstances of this tragedy have prompted 
numerous questions that highlight broader child welfare policy 
concerns: How well do government officials track children in their care 
and individuals previously in contact with child welfare authorities? 
Are child abuse cases reported and investigated promptly to ensure 
child safety? Are government agencies working together effectively to 
protect vulnerable children?
      
    Federal taxpayers provided States with more than $7 billion in 2003 
to promote safety, permanency, and well-being of children in or at risk 
of needing foster care. A significant share of these Federal funds 
support administrative costs, including systems and salaries dedicated 
to monitoring the well-being of children under the care of birth, 
foster, and adoptive parents. In recent months, the Subcommittee on 
Human Resources has held a series of hearings on another high-profile 
case involving a failure to protect children in New Jersey, as well as 
reporting and oversight issues that reflect on broader program trends 
and concerns in child welfare.
      
    In announcing the hearing, Chairman Herger stated, ``This 
incredibly sad situation highlights once again that the current child 
welfare system is ill-equipped to protect children. Such failures to 
ensure the safety of children are unacceptable. Federal taxpayers pay 
billions of dollars each year for systems and salaries designed to 
prevent such tragedies from happening. This hearing will examine the 
circumstances of this case to better inform policymakers about steps we 
should consider taking to better protect children.''
      

FOCUS OF THE HEARING:

      
    This hearing will focus on (1) the facts of a recent child welfare 
case in which twin infants died in Baltimore, Maryland; and (2) the 
implications of this case for efforts to improve the child welfare 
system.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``108th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=16). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Thursday, 
July 1, 2004. Finally, please note that due to the change in House mail 
policy, the U.S. Capitol Police will refuse sealed-package deliveries 
to all House Office Buildings. For questions, or if you encounter 
technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. Today's hearing focuses on a child welfare 
tragedy, the death of twin infant girls in Baltimore last 
month. I want to thank Mr. Cardin for suggesting this hearing 
as a continuation of our review of how child welfare systems 
are failing to protect children. Our purpose this afternoon is 
to understand what happened in this case so we do all we can to 
keep it from happening again in Baltimore and elsewhere. We 
welcome our guests from the State of Maryland and the city of 
Baltimore child welfare agencies. We also are pleased to be 
joined by the Baltimore City Commissioner of Health, who will 
discuss issues raised by the death of these 1-month-old girls. 
Finally, we welcome another expert and long-time observer of 
child welfare issues in Maryland who will place this case in 
context for us.
    This Subcommittee has held several hearings recently to 
investigate the Nation's child welfare programs. We explored a 
disturbing case involving four adopted boys in New Jersey who 
were starved in their home, we reviewed Federal and State 
oversight measures designed to determine if local officials are 
doing all that is necessary to protect children, and we heard 
about Federal reviews of State child welfare programs. 
Unfortunately, what we learned was that not one State has 
passed their review.
    Tragedies such as this case can happen in any neighborhood. 
Regretfully, the evidence we have seen shows that abuse cases, 
such as the one before us today, have occurred in every State. 
Since November, this Subcommittee has heard testimony from more 
than 30 individuals. We have received numerous e-mails, phone 
calls, and submissions for the record that highlight problems 
and concerns. What we have learned is that the current system 
is ill-equipped to protect vulnerable children.
    The case we will examine today highlights where life-and-
death decisions are made for these children, in homes, offices, 
courts, and hospitals across the country. With one more call, 
one more question, or one more background check, two little 
girls in Baltimore might be alive. We owe it to them and the 
other children who die each year to understand what went wrong 
so we can work with local officials to prevent such tragedies 
from happening again. No policy is or will be perfect, but we 
can all agree that what is occurring today in our country's 
child welfare programs is simply unacceptable and must change. 
Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point. Mr. Cardin, would you like to make an opening 
statement?
    [The opening statement of Chairman Herger follows:]
   Opening Statement of The Honorable Wally Herger, Chairman, and a 
              Representative from the State of California
    Today's hearing focuses on a child welfare tragedy--the death of 
twin infant girls in Baltimore last month. I want to thank Mr. Cardin 
for suggesting this hearing as a continuation of our review of how 
child welfare systems are failing to protect children.
    Our purpose this afternoon is to understand what happened in this 
case, so we do all we can to keep it from happening again in Baltimore 
and elsewhere.
    We welcome our guests from the state of Maryland and City of 
Baltimore child welfare agencies. We also are pleased to be joined by 
Baltimore's health commissioner who will discuss issues raised by the 
death of these one-month old girls. Finally, we welcome another expert 
and long-time observer of child welfare issues in Maryland, who will 
place this case in context for us.
    This subcommittee has held several hearings recently to investigate 
the nation's child welfare programs.

    <bullet>  We explored a disturbing case involving four adopted boys 
in New Jersey who were starved in their home.
    <bullet>  We reviewed federal and state oversight measures designed 
to determine if local officials are doing all that is necessary to 
protect children.
    <bullet>  And we heard about federal reviews of state child welfare 
programs. Unfortunately, what we learned was that not one state has 
passed their review.

    Tragedies such as this case can happen in any neighborhood--
regretfully, the evidence we've seen shows that abuse cases such as the 
one before us today have occurred in every state.
    Since November, this Subcommittee has heard testimony from more 
than 30 individuals. We've received numerous emails, phone calls, and 
submissions for the record that highlight problems and concerns. What 
we've learned is the current system is ill-equipped to protect 
vulnerable children.
    The case we will examine today highlights where life and death 
decisions are made for these children--in homes, offices, courts, and 
hospitals across the country. With one more phone call, one more 
question, or one more background check, two little girls in Baltimore 
might still be alive.
    We owe it to them and the other children who die each year to 
understand what went wrong, so we can work with local officials to 
prevent such tragedies from happening again.
    No policy is or will be perfect. But we can all agree that what is 
occurring today in our country's child welfare programs is simply 
unacceptable, and must change.

                                 <F-dash>

    Mr. CARDIN. Thank you, Mr. Chairman. First, let me thank 
you for calling this hearing so quickly in response to the 
shocking events that took place in Baltimore. I thank you for 
your continued commitment on this subject. As you pointed out, 
this is not the first hearing we have held in regards to the 
child welfare system. We have had several. The problems we see 
in Baltimore are not just in Baltimore, they are throughout the 
entire Nation. I thank you very much for your continued 
commitment and the commitment of this Subcommittee regarding 
the welfare of our children, our most vulnerable children that 
are in the child welfare system.
    This hearing is being called because of the tragic loss of 
the death of twins in Baltimore, the Swann twins, that 
illustrate a system that is clearly failing the very children 
whom it is designed to protect. When we talk about the twins' 
case, I am not interested in accusations or political 
maneuvering. The safety of vulnerable children in our society 
is just too important, and we need to have answers as to what 
we can do to protect these children. I expect to hear today 
from our witnesses clear and concise suggestions on how to 
prevent such tragedies in the future. In short, we want 
results.
    Mrs. Johnson, at one of our prior hearings, expressed, I 
think, the frustration of our Subcommittee; that we want to 
protect these children, and we want to find out how we can do 
it. We know we have to change our system, and we want specific 
recommendations. Only one thing is more tragic and more 
horrific than a child being beaten to death, and that is when 
the deadly abuse occurs after a variety of warnings signs that 
should have told us that there was a problem and we should have 
prevented this.
    That is exactly what happened in Baltimore. On May 11, 1-
month-old twin girls died after having their skulls and ribs 
fractured after being severely malnourished. The 17-year-old 
mother of these children, Sierra Swann, was a foster care 
runaway with a known drug problem who had another daughter 
recently removed from her custody because of a confirmed case 
of abuse and neglect, and yet she was still allowed to leave 
the hospital with twins after a hospital caseworker contacted 
the Department of Social Services (DSS) to inquire as to 
whether there was an open case or whether there was a concern 
for the mother.
    There were all types of signs that this mother had 
problems, and the hospital worker did what she thought was 
right in contacting the DSS. Social Services indicated that 
there was no open case with the agency. As a result, the mother 
left the hospital for a vacant basement with no electricity or 
running water. I don't know how many more signs could have been 
given that we had a problem here, and yet the children were 
lost because we did not respond.
    Mr. Chairman, legally the parents of a child in foster care 
is the State. We are the parents. We are the ones who have 
responsibility, and we failed in that responsibility. As a 
result of failing a responsibility for our child, our 
grandchildren died. It is unacceptable. Unfortunately, this is 
not an isolated incident in Baltimore. For example, a year and 
a half ago a 2-month-old baby was beaten to death by a mother 
with a psychiatric problem who was still on probation for 
abusing her first son. This tragedy occurred after Child 
Protective Services (CPS) was informed that the baby was in 
danger because its mother was failing to take her medication.
    Our past hearings, press reports from around the country, 
and Federal review of every State child welfare system suggests 
that Baltimore is not alone in failing to adequately protect 
their children. In fact, as you pointed out, Mr. Chairman, not 
one State in the Nation has passed all of the child well-being 
standards assessed by the Federal review process. 
Unfortunately, my own State of Maryland has failed in the seven 
measures that we use for child safety. That, obviously, is 
totally unacceptable. It is time, in fact it is past time, for 
action. We must take steps now to make sure that what happened 
in Baltimore never again happens anywhere in the Nation.
    We need to do more at the Federal level, and, Mr. Chairman, 
I am encouraged by our discussions as we are looking at 
legislation in order to modernize the Federal child welfare 
issues, and I am hoping that we can pass some legislation at 
the Federal level in order to help our States, and if a few 
foundations come up with recommendations, we are going to look 
at that, but regardless what we do at the Federal level, 
immediate steps must be taken by our States to protect our 
children.
    Therefore, I reiterate my request from the beginning. We 
want to know what can be done at the State level to protect our 
children today. I hope and expect the DSS will implement the 
necessary reforms quickly in order to protect our children. The 
lives of our children literally are on the line, and the cost 
of inaction is way too high. I look forward to hearing our 
witnesses in an effort that we make sure this never happens 
again.
    Chairman HERGER. Thank you, Mr. Cardin. Before we move to 
our testimony, I want to remind our witnesses to limit their 
oral statements to 5 minutes. However, without objection, all 
of the written testimony will be made a part of the permanent 
record. This afternoon we will be hearing from Christopher 
McCabe, Secretary of the Maryland Department of Human Resources 
(DHR); Floyd Blair, Interim Director of the Baltimore City DSS; 
Dr. Peter Beilenson, Baltimore City Commissioner of Health, who 
is also the son of a former Member of Congress from my home 
State of California, Tony Beilenson; and Dr. Diane DePanfilis, 
Co-Director of the Center For Families at the University of 
Maryland School of Social Work. Mr. McCabe to testify.

 STATEMENT OF HON. CHRISTOPHER J. MCCABE, SECRETARY, MARYLAND 
       DEPARTMENT OF HUMAN RESOURCES, BALTIMORE, MARYLAND

    Mr. MCCABE. Thank you, Mr. Chairman and Congressman Cardin, 
Congressman Camp, and Members and staff of the Subcommittee. 
Thank you for the opportunity to be with you again and to share 
perspectives on Maryland's child welfare challenges together 
with this very distinguished panel. We at the State level rely 
on partners to assist us in protecting children. Indeed, our 
work often begins after a child is referred to us from schools, 
hospitals, churches, or law enforcement in the community. We 
are then responsible to investigate these cases and take all 
appropriate actions.
    Governor Ehrlich and I are grateful for your interest in 
support of human service issues and for the funding that is 
appropriated by Congress for these purposes. These issues are 
not glamorous, but are at times literally, as Congressman 
Cardin said, a matter of life or death. Just 1 month ago, I 
testified before you regarding the Child and Family Services 
Review (CFSR) process. Since then Maryland has received the 
final report from the Federal Government. The study found that 
Maryland was in substantial conformity with Federal standards 
in some areas, but did not meet Federal standards in others. 
The DHR has formed six Committees made up of agency employees 
and outside advocates to recommend a program improvement plan 
to meet Federal standards.
    While the CFSR provides our State and every State a 
baseline from which to make systemic improvements in the 
practice of child welfare, on a daily basis our local agencies 
still face the stress of critical and difficult cases that test 
the capability of protecting children in at-risk situations. 
One of those such cases occurred in Baltimore City in May of 
2004, which is also the subject of this afternoon's hearing. It 
has also been the subject of much angst within our local and 
central offices on what actions might have been done 
differently not just by our local agency, but a number of the 
partners in child protection. We do not do it alone. The Sierra 
Swann case is both sad and tragic. While limited under law 
regarding what can be said related to an ongoing criminal case, 
I can say that Sierra Swann was known by our local DSS in 
Baltimore City. Her case file alone measures 5 inches. News 
accounts revealed some but not all the pertinent history of the 
case.
    Sierra Swann was a teenage runaway from a Baltimore City 
foster family. Her status as a runaway made the challenge of 
keeping a safety net for her only more difficult. In my 
observations, it is not uncommon that teenagers who have been 
in foster care for many years run away from the system that 
purportedly is there to help them. The majority of these 
individuals come back to their foster homes because they learn 
that the alternatives that they are facing are not acceptable. 
Sierra chose not to take this course.
    When this case became known, we acted aggressively to 
determine what indeed had happened both internally, as far as 
the department's response, and externally with the hospital and 
within the community. Very specific changes are being made as a 
result of our investigation. I will let Director Blair speak 
about specifics, but I can tell you that one of the changes we 
are immediately making is in the way critical communication is 
received and handled. Not only are we providing intensive 
training for our internal workers on how to field these child 
protective calls, and when to refer them to experts or up the 
chain, we will be working with sister agencies and community 
partners, again, schools, hospitals, churches, to explain our 
processes. In addition, the department has delivered a package 
of safety-related proposals, legislative proposals, that I will 
be sharing with Governor Ehrlich in the weeks ahead for 
possible legislative action in the 2005 legislative session in 
the Maryland General Assembly.
    One systemic improvement that we are very aggressively 
trying to implement involves better and more timely information 
technology. A key component of improving information sharing is 
to bring our automated child welfare computer system, MD 
CHESSIE, to the desk of each child welfare worker in the city 
and across the State. You all help provide the funding for that 
system. Immediately after becoming Secretary of the department, 
I recognized our current child welfare computer system is 
minimally adequate and largely disjointed. Currently, among 
Maryland's 24 local jurisdictions, there are several partially 
automated child welfare tracking systems, none of which 
communicate across platforms. Though some of these systems are 
adequate for local needs, the major problem is they are not 
standardized statewide, and our largest jurisdictions, in 
particular Baltimore City, struggle most with this disparity.
    Maryland's statewide automated child welfare information 
system (SACWIS) is still 2 years away, but we are committed to 
an early release of the child intake module. I'll repeat, are 
committed to the early release of the child intake module, and 
Baltimore City will be one of those jurisdictions. Other 
workers, their supervisors, and our executive staff deserve 
this 21st century tool to do their difficult jobs. The central 
offices and Baltimore City DSS are learning from the Sierra 
Swann case, as we do endeavor in each case. As we implement 
changes to fill gaps in our own system, we would expect our 
partners in child protection, hospitals, public health 
department, and others, to evaluate their own processes and to 
do the same. In turn, we all need to communicate with each 
other of our respective improvement plans.
    In conclusion, will the improvements I have just mentioned 
and those that Mr. Blair will outline prevent the future deaths 
of children in cases similar to Sierra Swann's children? I 
cannot make that guarantee. Will it help reduce the likelihood 
that an incident like this will happen in the future? I believe 
so, and I am committed to doing what I can to do so. Thank you 
for your time and attention to this very serious matter, and I 
am prepared to answer your questions at the appropriate time. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. McCabe follows:]
 Statement of The Honorable Christopher J. McCabe, Secretary, Maryland 
           Department of Human Resources, Baltimore, Maryland

Dear Mr. Chairman and Members of the Committee:

    Just one month ago, I testified before you regarding the child and 
family services review process. Since then, Maryland has received the 
final report by the federal government.
    The study found that Maryland was in substantial conformity with 
federal standards in training its workers, responding to the community, 
and licensing, recruiting and retaining foster and adoptive parents.
    However, our State did not meet federal standards in several other 
categories, including an adequate statewide information technology 
system for child welfare and the number of children in foster care 
reunited with their parents.
    The Department of Human Resources has formed six committees, made 
up of agency employees and outside advocates, to recommend a program 
improvement plan to meet federal standards.
    While the child and family services review provides our state--and 
every state--a baseline from which to make systemic improvements in the 
practice of child welfare, on a daily basis, our local agencies still 
face the stress of critical and difficult cases that test the 
capability of protecting children in an at risk situation.
    One of those such cases occurred in Baltimore City in May 2004, 
which is the subject of this afternoon's hearing. It has also been the 
subject of much angst within our local and central offices on what 
actions might have been done differently, not just by our local agency, 
but a number of ``partners'' in child protection.
    The Sierra Swann case is sad and tragic. While I am limited under 
law regarding what can be said related to an ongoing criminal case, I 
can say that Sierra Swann was known by our local Department of Social 
Services in Baltimore City. Her case file alone measures five inches.
    As news accounts revealed, Sierra was a teenage runaway from a 
foster family, licensed by the Department of Social Services, which 
made the challenge of keeping a safety net for her only more difficult.
    When this case became known, we acted aggressively to determine 
what indeed had happened both internally as far as the Department's 
response and externally with the hospital and within the community. 
Very specific changes will be made as a result of our investigation, 
some of which were in process, but due to this tragedy, were suddenly 
propelled to a new level of intensity.
    I will let Director Blair speak about specifics but I can tell you 
one of the changes we have made immediately is in the way incoming 
calls are handled. Not only are we training internal workers on how to 
take calls and when to refer them to the experts, but we will be 
working with sister agencies and community partners--schools, 
hospitals, churches--to explain our process.
    We all have to be partners, working together as effectively as 
possible. The job is tough enough already and if we are not working 
together, tragic things like this can happen, as it does in other 
states.
    One systemic improvement involves better and more timely 
communication. This is an ever present goal of the Administration. A 
key component of that improved communication is to bring our automated 
child welfare computer system, MD CHESSIE, to the desk of our child 
welfare workers.
    Immediately after becoming Secretary of the Department, I 
recognized our current child welfare computer system as inadequate and 
disjointed. Currently, among the 24 local jurisdictions there are 
several partially automated child welfare tracking systems, none of 
which communicate across platforms. All DHR child welfare systems are 
predominantly paper based. Though some of these systems are adequate, 
the major problem is that they are not standardized statewide. Our 
larger jurisdictions struggle the most with this disparity.
    Governor Ehrlich, Lieutenant Governor Steele, and I have made 
demonstrable and substantial commitments to providing Baltimore City 
Department of Social Services with the leadership, structure, and 
resources to effectively and efficiently serve the most vulnerable 
citizens of Baltimore City. We do this in the context of a statewide 
human services system in need of additional staffing resources and 
training needs, to mention a few.
    In Baltimore City, we are committed that any reform we undertake 
will be data-driven and research-based, family--focused and strength-
based, as well as based on interagency coordination.
    Perhaps a little history is helpful in understanding the magnitude 
of these commitments.

    <bullet>  Soon after I was appointed Secretary, it became apparent 
that the Baltimore City Department was struggling under a great many 
management challenges.
    <bullet>  BCDSS had been operated under a federal consent decree, 
lj vs. Massinga, since 1989.
    <bullet>  Sixty to sixty-five percent of our total client needs for 
the entire state reside within the boarders of Baltimore City. The 
sheer size of the need in Baltimore has a disproportional impact on 
Maryland's success or failure.

    For example, the overall span of control for its director was 
enormous:

    <bullet>  The local agency employs approximately 2,400 staff 
members.
    <bullet>  It manages 22 facilities spread across the city, touching 
nearly every community.
    <bullet>  The agency has high caseloads in its many programs, 
serving families literally from cradle to grave.
    <bullet>  Some facilities were found below par in terms of 
cleanliness and healthfulness.
    <bullet>  Equipment needs were manifest, with communication 
seriously impaired from an aging telephone system that frequently 
failed at various sites and did not even provide many staff members 
with voice mail. A significant number of staff members were without 
computers and thus without e-mail or internet access to do their work.

    With Governor Ehrlich's support and that of the Maryland General 
Assembly, the Department of Human Resources undertook an extensive 
investment of time, funds, personnel and other resources to bring 
Baltimore City Department of Social Services into the twenty-first 
century.

    <bullet>  With four million dollars committed by the legislature, 
we are implementing a full upgrade of the outdated analog telephone 
system with a digital system, which on completion will provide voice 
mail throughout the 22 BCDSS work sites, as well as conferencing and 
transfer capability.
    <bullet>  We installed one thousand computers previously ordered 
but never delivered to staff.
    <bullet>  We invested significant resources in performing or 
negotiating with our landlords overdue repairs and renovations of 
facilities that were not providing a suitable work environment.
    <bullet>  We are investing in replacement of aging and 
nonfunctioning basic equipment staff members need to do their jobs, 
like copiers and printers.
    <bullet>  And most important, we have added fifty new state 
employees. Thirty-five of them are in child welfare to help make 
caseloads manageable at ninety percent of CWLA standards.

    In addition to these immediate steps, however, we began a careful 
and critical examination in the child welfare system. We determined 
that, while no one model in its entirety seemed appropriate for 
BaltimoreCity, we needed to transform Baltimore City Department of 
Social Services to provide:

    <bullet>  Seamless service delivery (i.e., one-stop shops),
    <bullet>  An interdisciplinary team approach,
    <bullet>  Focus on Baltimore's communities,
    <bullet>  Strong interagency collaboration, and
    <bullet>  Data-driven and outcomes-based service delivery.

    We are instituting a regional service delivery system co-locating 
services that serve the same clients so that they can find a variety of 
needed services across the hall rather than across town.
    Thank you again for the opportunity to provide these updates. Mr. 
Blair will provide additional details.

                                 <F-dash>

    Chairman HERGER. Thank you, Secretary McCabe. Now, Director 
Blair to testify.

 STATEMENT OF FLOYD R. BLAIR, INTERIM DIRECTOR, BALTIMORE CITY 
       DEPARTMENT OF SOCIAL SERVICES, BALTIMORE, MARYLAND

    Mr. BLAIR. Good afternoon, Mr. Chairman and Members of the 
Committee. I am Floyd R. Blair, Interim Director of the 
Baltimore City DSS, the largest social services agency in 
Maryland. I am honored and pleased to speak before you today 
and provide an update about current progress on child welfare 
services in Baltimore City and improvements to its service 
delivery system. Baltimore is a wonderful city, yet at times it 
is a violent place. Unfortunately, this is not uncommon in 
large urban areas. Families in urban areas frequently face a 
multitude of issues: violence, substance abuse, mental health 
issues, high unemployment, and a lack of family and community 
resources. Given this environment, children are often at risk, 
even in danger, while in the care of their own parents. It is a 
heart-wrenching for our workers to get a call to remove a child 
from a home where abuse and severe neglect compromise that 
child's safety and security. The home the child has known as 
his or hers, that safe place, in fact, is not, and out of 
necessity the child is uprooted, the family torn apart. On the 
average, our workers remove about 100 children per month from 
their families in Baltimore City.
    When a child dies, it is a tragedy, and it is unacceptable. 
We have undertaken a serious, comprehensive review of the 
Sierra Swann case, reviewing not only the immediate 
circumstances of the case that eventually ended in the tragic 
deaths of the twins, but also a review of the case involving 
this teen mother since she first came to the attention of the 
department. Both processes are equally important to the 
continued improvement of our current system.
    I will explain some of the facts we have found in our 
investigation. Prior to public reports, there was a previous 
report of child abuse against Ms. Swann. An older child had 
been removed from her care in October 2003. Once a child is 
removed from a parent's home and placed into foster care, that 
protective service case is considered closed, not active. It 
becomes an active foster care case and continues to be 
monitored by the foster care caseworker. It was also reported 
that Ms. Swann was a runaway from the State foster care system 
with an outstanding warrant for her to return to foster care.
    Ms. Swann, already in labor, was taken to Johns Hopkins 
Hospital, where she delivered twins. A Johns Hopkins social 
worker attending to Ms. Swann called the number normally used 
by internal DSS staff and asked the clerk if Ms. Swann had an 
active child abuse case. After checking the appropriate data 
screen, the clerk answered no, which was an accurate answer. 
The social worker from the hospital did not ask any further 
questions about prior cases regarding Sierra Swann. This call 
was made to a clerk, not a screener. A screener is trained to 
go beyond the question that was initially asked by the person 
from Johns Hopkins.
    When someone calls in to report suspected abuse or neglect, 
our screen unit takes the call. It is our standard operating 
procedure to do an intensive review of all such calls. Based on 
our review of the Swann case, we are implementing not only some 
immediate plans, but also systemic changes which have become 
part of our overall improvement plan, a copy of which you 
should have before you entitled, The Baltimore City DSS 
Systemic Improvements.
    In the Swann case, we developed an action plan, and some of 
these are the key actions: all calls reporting maltreatment are 
now routed through a central number where trained screeners can 
access all available information on a case. We are implementing 
a written protocol for all staff who take outside calls, 
detailing how and when to refer appropriate calls to the 
appropriate staff who can give comprehensive information to 
qualified verified callers. We are implementing a runaway risk 
alert feature on all screens. We have a priority list of cases 
needing response within 1 hour. Today, staff have initiated 
contact with our outside partners through written and verbal 
directives detailing our processes, educating our partners, 
hospitals, schools, et cetera, on the current and future 
protocol and procedures. We plan to convene face-to-face 
training with our community partners to reinforce our 
processes. We have added staff to our screening unit to ensure 
calls are answered timely and properly. On July 1st, we are 
enhancing our 24-hour, 7-day-per-week CPS hotline. Twenty 
positions have been added to work nights, weekends, and 
holidays. We need all of our advocates, community resources, 
public officials, neighbors, experts in the health care system, 
school systems, everyone to create a positive partnership to 
help us ensure that services are provided through a 
coordinated, unified system, so that a tragedy like this never 
happens again. I want to thank you for the time.
    [The prepared statement of Mr. Blair follows:]
 Statement of Floyd Blair, Interim Director, Baltimore City Department 
                of Social Services, Baltimore, Maryland
    <bullet>  Good afternoon, Mr. Chairman and members of the 
committee. I am Floyd R. Blair, Interim Director of the Baltimore City 
Department of Social Services (BCDSS), the largest social services 
agency of the Maryland Department of Human Resources (DHR). I am 
honored and pleased to speak before you today to provide an update 
about our current progress on ensuring child safety and improving child 
welfare service delivery in Baltimore city.
    <bullet>  When speaking to parents about children, a famous 
children's television personality, Mr. Fred Rogers, said: ``the roots 
of a child's ability to cope and thrive, regardless of circumstance, 
lie in that child's having at least a small, safe place . . . (an 
apartment? A room? A lap?) Where, in the companionship of a loving 
person, that child could discover that he or she is lovable and capable 
of loving in return.''
    <bullet>  This quote sums up for me, the fact that the most 
important aspect of a child's life is the security of a safe place. 
When children enter our care it is our priority to provide that safe 
place for those that have been abused or neglected.
    <bullet>  Specifically, I will be briefing you on a recent child 
welfare case you indicate is of special concern.
    <bullet>  Protecting children who are in the care of social 
services is one of the primary responsibilities of this administration.
    <bullet>  Governor Ehrlich, Secretary McCabe and I are committed to 
improving services in Baltimore city. Baltimore is a wonderful city, 
yet at times it is a violent place. Unfortunately, this is not uncommon 
in large urban areas.
    <bullet>  Families in urban areas frequently face a multitude of 
issues--violence, substance abuse, mental health issues, high 
unemployment and a lack of family and community resources. Given this 
environment, children are often at risk, even in danger while in the 
care of their own parents.
    <bullet>  Once the local department is involved with a family, we 
have an opportunity to begin to help that family address many of these 
difficult issues. Our staff work tirelessly under very strenuous 
conditions with limited resources, to try to make a difference in the 
lives of these citizens.
    <bullet>  I cannot say to you that all our workers are always 
giving 150%--I don't think anyone in management can say that with 
assurance. But what I can say is that these exceptionally dedicated men 
and women save lives every day. In fact, the final report of the recent 
federal child and family services review indicates that on its safety 
outcome 1, ensuring that children are first and foremost protected from 
abuse and neglect, the outcome was determined to be substantially 
achieved in 100% of Baltimore city cases reviewed.
    <bullet>  It is heart-wrenching for our workers to get a call to 
remove a child from a home where abuse and severe neglect compromise 
that child's safety and security--the home that child has known as his/
her ``safe place'' in fact isn't--and out of necessity, the child is 
uprooted, the family torn apart.
    <bullet>  Our staff are trained to make those tough decisions--to 
remove a child from his/her parent's home when it is determined to be 
in the child's best interest.
    <bullet>  On average, our workers remove about 100 children per 
month from their families in Baltimore city.
    <bullet>  When a child dies it is a tragedy--and even more so when 
the department has previously intervened in an attempt to stabilize the 
family.
    <bullet>  Federal and state laws place certain restrictions on the 
department concerning case confidentiality. While this of course 
protects the families and children involved, it also limits what we 
might like to say to those who share our concern, particularly 
following a child fatality.
    <bullet>  Given the importance of recent events, I will share as 
much as I can in an effort to assure you that BCDSS and DHR have 
undertaken a serious, comprehensive review of the Sierra Swann case, 
reviewing not only the immediate circumstances of the events that 
eventually ended in the tragic deaths of the twins, but also the case 
involving this teen mother since she first came to the attention of the 
department. Both processes are equally important to the continued 
improvement of our current system.
    <bullet>  To better understand our role, the role of the hospital 
and others involved, we tracked the chronology of events in this case. 
It is important for us first to identify any gaps in service or 
procedure so that we may prescribe the proper remedies.
    <bullet>  I will explain some of the facts we found in our 
investigation.
    <bullet>  Prior to public reports, there was a previous report of 
child abuse against ms. Swann. An older child had been removed from her 
care in October 2003.
    <bullet>  Once a child is removed from a parent's home and placed 
into foster care, that protective service case is considered closed--
not active.
    <bullet>  It was also reported that ms. Swann was a runaway from 
the state foster care system with an outstanding warrant for her to 
return to foster care.
    <bullet>  Ms. Swann, already in labor, was taken to Johns Hopkins 
hospital, where she delivered twins.
    <bullet>  The Johns Hopkins social worker attending to Ms. Swann, 
called a number normally used by internal DSS staff, and asked a clerk 
if ms. Swann had an ``active'' or ``open'' child abuse case. After 
checking the appropriate data screen, the clerk answered ``no'', which 
was an accurate answer. As I previously stated, once a child is removed 
from the parent's care and placed in foster care, the case is closed--
and not active.
    <bullet>  The social worker from Hopkins did not ask any further 
questions about prior cases regarding Sierra Swann. This call was made 
to a clerk, not a screener. A screener is trained to go beyond the 
question asked.
    <bullet>  It was recently reported that sierra was charged, along 
with live-in boyfriend, Nathaniel Broadway, with the murder of their 
newborn twins.
    <bullet>  I would like to describe some of the standard operating 
procedures we follow after a fatality so you will know what DHR and 
BCDSS have done to address incidents surrounding the Swann case in 
particular.
    <bullet>  When someone calls in to report suspected abuse or 
neglect, our screening unit takes the call. It is our standard 
operating procedure to do an intensive review of all such calls.
    <bullet>  Based on our review of the Swann/Broadway case, we are 
implementing not only some immediate plans, but also systemic changes 
which have become part of our overall improvement plan--a copy of which 
is attached as ``document a:BCDSS systemic improvements.''
    <bullet>  BCDSS has begun to initiate process improvements. I wish 
I could say we always do everything right. It is frustrating that 
change is slow even when we put forth our best efforts. But we are 
making progress.
    <bullet>  In the Swann case, we completed a risk analysis and 
developed an action plan of systemic issues that we agree need to be 
addressed. They are:

        1.  Implementation of a centralized number--all calls reporting 
        maltreatment will go through a central number where trained 
        screeners can access all available information on a case;
        2.  Development of a written protocol--any general staff who 
        take outside calls will be trained in how and when to refer 
        calls to appropriate staff who can give comprehensive 
        information to qualified/verified callers;
        3.  Initiation of an alert feature--we will initiate runaway/
        high risk alerts on all screens;
        4.  Revision of priority list of cases needing response within 
        1 hour to elevate the most urgent;
        5.  Education of partners (hospitals/schools etc.) On protocol, 
        procedures; and
        6.  Addition of staff in screening units to ensure calls are 
        answered timely and properly.

    <bullet>  We need all of our advocates, community resources, public 
officials, neighbors, experts in the health care system, school 
systems--everyone--to create positive partnerships--to help us ensure 
that services are provided through a coordinated, unified system.
    <bullet>  I met recently with charlie cooper, administrator for the 
citizens review board in Maryland. We discussed the combined 
recommendations that the child protection panels, the city child 
fatality review team, and citizens review board for Baltimore city have 
made for improvements to our agency.
    <bullet>  We have shared that information with internal BCDSS work 
groups which will be making recommendations for the redesign of our 
service delivery system.
    <bullet>  We are open to an ongoing dialogue with all stakeholders 
as we continue this process.
    <bullet>  We have incorporated some of the plans that a work group 
headed by Baltimore's health commissioner, Dr. Peter Beilenson, 
recommended--some I am pleased to say we had already identified in our 
internal workgroups. Others are under consideration.
    <bullet>  Our BCDSS mission is:

         To protect vulnerable children and adults,
         To preserve families, and
         To promote self sufficiency

    <bullet>  In support of our mission, here is what we are doing now:

        1.  On July 1st we will enhance our 24 hours--7 days per week 
        child protection service hotline.
        2.  Twenty positions will be added to work nights, weekends, 
        and holidays.
        3.  A family preservation component will be initiated in the 
        same unit to help children stay in their homes and keep 
        families together when it is safe to do so.
        4.  We have added sixty new positions to our family investment 
        and family services programs through the support of Governor 
        Ehrlich and Secretary McCabe.
        5.  Caseload ratios will significantly decrease in our family 
        services program (1:20) when all positions are filled.
        6.  All family services staff have been issued personal digital 
        assistant equipment to assist our workers in the field with 
        proper reporting and follow up.

    <bullet>  We will continue to seek creative ways to work smarter 
and more efficiently with the resources that we have. It is our plan 
for the city's department of social services to be more user-friendly 
and full-service oriented.
    <bullet>  We can make a difference in the lives of Baltimore's most 
vulnerable families and children by working in a coordinated fashion 
with our community partners and sister agencies.
    <bullet>  Thank you for your commitment, involvement, and support 
as we move forward on this journey to excellence.
                               __________
    DOCUMENT A: Baltimore City Department of Social Services

                          Systemic Improvements
------------------------------------------------------------------------
                                           Persons
  Problem/Barrier      Action Steps      Responsible      Target Dates
------------------------------------------------------------------------
1) Multiple         Immediate:
 Contact              <bullet> All      A.Towns,       July 1, 2004
  Numbers            calls regarding    L. Williams
  <bullet> CPS       child
 Intake              maltreatment go
  <bullet> Central   to 410-361-2235.
 Intake (Family      Decisions of what
 Support)            constitutes abuse
  <bullet> Adult     or neglect are
 Services            the statutory
  <bullet> Informa   responsibility of
 tion and Referral   the Department.
                      <bullet> Inform
                     callers that
                     their information
                     is accepted for
                     investigation (if
                     screened in) and
                     that they will
                     receive
                     acknowledgement
                     letter with
                     assigned worker's
                     name
                      <bullet> For 3-5  L. Williams,   July 15, 2004
                     days, have         M. Gordon
                     clerical staff
                     who answer 410-
                     361-4033, keep a                  October 1, 2004
                     log of calls for
                     information, data
                     to assist in how
                     to cease the
                     inappropriate use
                     of that number
                    Longer term:
                      <bullet> Seek     A. Towns,      October 1, 2004
                     guidance from      L. Williams
                     Legal to develop
                     guidelines for
                     appropriate use
                     of the 4033
                     number
                      <bullet> Incorpo
                     rate in design of
                     new phone system
                     to be operational
                     10/01/04
                      <bullet> Determi
                     ne feasibility of
                     establishing a
                     central ``call
                     center'' for all
                     calls
------------------------------------------------------------------------
2) Two Data         Immediate:
 Systems
  (Client             <bullet> Continu   L. Williams    Current
   Information       e current           and Staff
   System and        practice of
   SADIE)            clearing both
                     systems on new
                     referrals for
                     investigation
                      <bullet> Informa                 July 15, 2004
                     tion to be given
                     out from either
                     system to be
                     determined after
                     protocol (in 1
                     above) developed
                    Longer Term:
                      <bullet> MD       DHR/OTHS       2006
                     CHESSIE will
                     provide complete
                     data search
                     (including CIS
                     information)
------------------------------------------------------------------------
3) No easily        Immediate:
 useable alert        <bullet> Determi  C. Henry,      July 1, 2004
 system for high     ne feasibility of  A. Towns,
 risk situation      using cross-       Holmes A.
 (runaways, child    bureau (that is,
 abductions, etc)    all programs
                     including Family
                     Investment) alert
                     procedure
                     developed by CPI
                     Team
                      <bullet> Determi  A. Holmes       July 1, 2004
                     ne feasibility of
                     using either CIS
                     or SADIE for
                     alerts
                    Longer Term:
                      <bullet> MD       DHR/OTHS       2006
                     CHESSIE has alert
                     functionality
------------------------------------------------------------------------
4) Priority         Immediate:
 Protocol needs       <bullet> Review   J. Smith,      July 15, 2004
 refining to         and revise the     L. Williams
 better identify     list and
 cases needing       definitions to
 immediate           appropriately
 response            identify those
                     cases needing 1
                     hour response
------------------------------------------------------------------------
5) Limited          Immediate:
 services provided    <bullet> Continu  F. Blair,      July 1, 2004
 outside of the      e plans for        C. Henry,
 ``normal''          implementation of  A. Towns,
 workday (that is,   Extended Hours     L. Williams,
 8-5,M-F)            PLUS (full         A. Cobb
                     service Intake,
                     including Family
                     Preservation
                     services) 24/7
                      <bullet> Insure   A. Holmes      Aug. 2004
                     case data
                     availability for
                     after-hours
                     decision-making
------------------------------------------------------------------------
6) Partnerships     Immediate:
 need renewal for     <bullet> Develop  J. Smith,      July 1, 2004
 better              schedule to meet   L. Williams
 collaboration       with partners to
                     re-iterate
                     commitment to
                     collaboration
                    Longer Term:
                      <bullet> Plan     L. Williams    August 1, 2004
                     with them for
                     regular follow-up
                     to keep the
                     communication
                     open
------------------------------------------------------------------------
7) Training for     Immediate:
 staff and            <bullet> Develop  J. Smith, L.   July 15, 2004
 educational         training plan for   Williams,
 awareness for       all staff           TSD
 stakeholders
 needs to be
 updated
                      <bullet> Educate  L. Williams    August 1-15, 2004
                     stakeholders in     and Staff
                     protocols that
                     affect them
                    Longer Term:
                      <bullet> Build    L. Williams    September 1, 2004
                     in regular          and Staff
                     updates
------------------------------------------------------------------------
8) Staffing is not  Immediate:
 sufficient           <bullet> 4 new     E. Seale,     July 1, 2004
                     PINS added to      C. Henry,
                     Screening
                      <bullet> Additio  A. Towns,      June 15, 2004
                     nal needs to be    L. Williams
                     identified
                      <bullet> Replace  C. McCabe,     July 1, 2004
                     ment staffing      F. Blair
                     plan needed for
                     those positions
                     where the
                     incumbents are
                     transferring to
                     Extended Hours
                    Longer Term:
                      <bullet> Continu                 On-going
                     e to evaluate
                     needs as well as
                     necessary
                     staffing or
                     workload shifts
                     as program
                     improvements are
                     made
------------------------------------------------------------------------
9) Case review      Immediate:
 process needs to     <bullet> Continu  C. Henry,      On-going
 continue            e to use the       A. Towns
                     Quick Response     Public
                     Team staffings to   Information
                     evaluate case
                     work and identify
                     gaps
                    Longer Term:
                      <bullet> Evaluat   C. Henry,     Oct. 2004
                     e the Quality      A. Cobb,
                     Assurance process  A. Towns
                     for changes to
                     improve
                     effectiveness
------------------------------------------------------------------------


                                 <F-dash>

    Chairman HERGER. Thank you, Director Blair. Dr. Beilenson 
to testify.

  STATEMENT OF PETER BEILENSON, COMMISSIONER, BALTIMORE CITY 
                       HEALTH DEPARTMENT

    Dr. BEILENSON. Thank you, Mr. Chairman, and fellow 
Californian; and Mr. Cardin, fellow Marylander; and, Mr. 
McDermott, good to see you again, sir; Mr. Camp and staff. I am 
the City Health Commissioner, and so people have been asking 
why am I involved with this, the answer to that I will get to 
briefly, but I was Chair of a Committee that made 
recommendations, specific recommendations, on how to improve 
the child protective system both in Baltimore and in the State. 
We got to that point because I am Chair of the Child Fatality 
Review Committee in Baltimore. By statute, the health officer 
of each county is required to Chair the Child Fatality Review 
Committee. That Committee is charged with reviewing cases of 
unexpected childhood deaths and looking for themes and ways 
that can change those sort of things.
    In Baltimore City, there are three major causes of 
unexpected childhood death: one, sudden unexplained death in 
infancy. A lot of that was due to co-sleeping cases with 
parents. We made public education and press conferences to let 
parents know about trying to avoid that. Second, were juvenile 
homicides. We set up a project, and Congressman Cardin has 
probably heard of it, called Operation Safe Kids, where we 
intensively case-manage the kids that are most at risk for 
shooting or being shot. The third major cause of unexpected 
childhood death are child abuse cases. There are two basic 
patterns of child abuse death cases in the city and, I would 
presume, around the country as well. Pattern number one: kid is 
neglected or abused. I will use mom, but it can be obviously 
mom or dad. Temporarily removed from the family, returned to 
mom, inappropriately we believe. Kid is killed by mom. I will 
talk about the recommendations we made for that pattern.
    The second pattern, the one of the Swann case, is kid 
abused or neglected so severely that they are permanently 
removed from the family. As you heard from Mr. Blair, CPS 
closes the case; closes the case because there is no child to 
protect anymore, and those moms go on, almost inevitably, 
because they are all at reproductive age, to have another child 
within several months or a year or 2 years. As is the case 
here, it was actually a few months after the permanent removal. 
No one is following that mom from CPS. So, they are not offered 
contraceptive services, they are not offered mental health 
services, substance abuse services. That mom has another child 
who is at tremendous risk for neglect or abuse and is killed.
    So we, in January, made recommendations that were forwarded 
to the State and to the city DSS on concrete things that we can 
do, we think, most of which are cost-neutral. Most of these do 
not cost money. I have attached them to my testimony. I am not 
going to go through all of them. I am only to go through a few 
that I thought might have some implication on a national level, 
or were so directly related to this case that I wanted to 
mention them.
    First of all, improving the CPS Call Center. It has not 
changed. I am now, thanks to press coverage, getting a lot of 
calls from people who are reporting to me child abuse cases. I, 
in fact, called Baltimore County DSS, not us, a different DSS, 
and happened to know in a case that was reported to me that 
there had been five previous children removed, case closed, 
case closed, case closed, case closed; no services offered. A 
new kid has been born to this mom. There is now worry of abuse 
or neglect from the community. I call in and am only told by 
the person who answers the correct hotline, the correct 
hotline, because I did call the correct hotline, they did not 
tell me there had been previous cases. So, that had not 
changed.
    We think, in terms of the temporarily removed kids, very 
specific team approaches need to be made. Team approach 
decisions need to be made as to when to return a kid. Far too 
many cases, and Congressman Cardin didn't mention the litany of 
cases that we have had of temporarily removed kids that are 
then returned to mom because they simply had parenting classes; 
because one social worker and, potentially, a supervisor made a 
decision to return the kid to mom, when there is all evidence 
to the contrary that that child should be returned to the mom. 
A team approach, multidisciplinary, should be instituted. I 
know it is talked about, but it is rarely done.
    One of the biggest problems is there is a lack of 
caseworkers because, and, therefore, too high caseloads, 
because funding is a problem. You have to streamline the 
process by which caseworkers go to court. I don't know if the 
Congressman has been to juvenile court in Baltimore City, but 
it is chaotic, to say the very least. An immense amount of time 
is wasted by caseworkers just waiting around for cases that 
often just get postponed. Similarly, to keep judges involved 
and keep cases followed, just like you want to keep CPS 
involved with cases, it should be a one-judge, one-family 
setup. That has nothing to do with DSS or DHR, but it is 
something the court should be looking at.
    Finally, as you can probably guess from my comments, it is, 
I would say, insane, it makes no sense, that when the child has 
been permanently removed from a family, that CPS case should 
not be closed. In fact, it should be stepped up, the kind of 
coverage for that family that needs to go forward. Last two 
points, confidentiality laws need to be revisited. I will be 
happy to take questions on that. Second, it has to be what is 
in the child's best interest, not reunification for any reason. 
As Congressman Cardin knows, I am a dad. I have four kids. 
Being a father is one of the very most important things in my 
life, and preserving family is crucial. However, there are some 
cases where you should not reunite a family because it is 
simply not in the child's best interest. Thank you.
    [The prepared statement of Dr. Beilenson follows:]
  Statement of Peter Beilenson, M.D., Baltimore City Commissioner of 
                      Health, Baltimore, Maryland
    Good afternoon, Chairman Herger and members of the Subcommittee. I 
am Baltimore City's Commissioner of Health, have held this position for 
12 years, and have been appointed by two mayors. Since our Health 
Department is most often associated with health service delivery, many 
have asked why I am involving myself in the reform of social service 
systems. It is my experience as chair of Baltimore City's Child 
Fatality Review Team that brings me here today, and it is the pattern 
of child abuse deaths that leads me to advocate for swift systemic 
changes to our Child and Protective Services. Unfortunately, the 
terrible deaths of two infants at the hands of their parents have 
brought this advocacy to the forefront.
    The Child Fatality Review Team (CFR) is a multi-agency, multi-
disciplinary team that reviews unexpected deaths (those not occurring 
in a hospital) of infants and children through age 17. The purpose of 
the team is to review all pertinent information on a specific case and 
come up with recommendations on how future deaths could be prevented. 
The team meets once per month and reviews over 100 cases per year.
    During recent years, as chair of the local CFR, three major causes 
of unexpected death in children have emerged. First, SIDS and SUDI 
(Sudden Infant Death Syndrome and Sudden Unexpected Death in Infants) 
occur repeatedly. In response to this, we held several press events to 
address adults co-sleeping with their babies, which can lead to 
suffocation. A second main cause is juvenile shootings, especially as 
related to the drug trade. Our Health Department has pioneered 
Operation Safe Kids, a program designed to protect our city's youth 
that are most at-risk for shooting or being shot. Finally, we have 
reviewed countless child abuse deaths. The majority of these deaths 
fall in two categories. One--the Child and Protective Services had 
removed a child temporarily from a parent's care due to abuse and 
neglect and then the child was returned to that parent and killed. Or 
two--after a parent had a child permanently removed previously from 
their home due abuse or neglect, the parent had another child, which s/
he then abused and killed.
    To respond to these common patterns of child abuse deaths, with the 
Mayor's encouragement, we formed an interdisciplinary task force, the 
Child Welfare Reform Committee, to examine this flawed system and to 
draft recommendations for improvement. Composed of eight local leaders 
from medical, therapeutic, advocacy, law enforcement, and judicial 
sectors, this committee represents decades of experience with the local 
child welfare system.
    Rather than the protracted processes that frequently plague 
longstanding commissions and committees, the Child Welfare Reform 
Committee held two targeted meetings. In meetings in November and 
December of 2003, we pointedly asked and answered, ``Where are the gaps 
in our city's Child and Protective Services and what measures will 
close those gaps?''
    In January of this year, I submitted to the Mayor the Committee's 
recommendations for system reform. The briefing memomorandum included 
recommendations that impact upon a part of the process as well as 
recommendations that affect the system globally. The recommendations 
were then forwarded to the State Department of Human Resources, which 
oversees Child and Protective Services, and were widely covered by the 
press.
    Four months subsequent to the Committee's recommendations, the 
horrific death of two infant twins at the hands of their parents 
shocked the entire region. Factors of poverty, mental health, and 
substance abuse played a role in the atrocity, but what is worse--and 
unfortunately not at all new to the citizens of Baltimore--is the fact 
that Maryland's safety net for victims of abuse and neglect failed 
these babies miserably. A case review shows many warning signals--
namely, a runaway teenage mother whose previous child was permanently 
removed from her care because of abuse. Sadly, it took the Broadway 
twins' case to prove the pertinence of our recommendations.
    Speaking to you today about the system's recurring failure to 
protect children, I would like to share with you a selection of the 
Child Welfare Reform Committee's recommendations--those that 
particularly relate to this case. Implementation of these ideas would 
likely have impacted the outcomes in this most recent tragedy.
    ``Improve effectiveness of CPS call center by increasing training 
and staffing.'' When called, had the worker not simply commented that 
there was no open case but actually looked at the record, when Johns 
Hopkins Hospital called they would have been notified that, in fact, 
there was a closed case for severe abuse and neglect, but there was 
also an open foster care runaway case, which would have unquestionably 
resulted in immediate appropriate referral of the case to Child and 
Protective Services.
    ``Staff Johns Hopkins Hospital 24 hours per day, 7 days per week.'' 
Had there been a worker on-site, the Hopkins social worker would have 
had a direct contact to the Department of Social Services. We recommend 
this service for this facility because it is the primary medical center 
for children suspected to be victims of child abuse.
    ``Equip CPS offices with adequate information technology.'' It may 
not be fair to completely blame the telephone operator. If adequate 
information technology had been available, the intricacies of the case 
may have been available on his/her computer screen.
    Most salient of all, in January, we recommended that the system 
``Design measures to protect future children of a parent who has been 
convicted of [or otherwise implicated in] abusing previous children.'' 
This idea is so completely logical; it almost defies explanation. We 
often speak of preventive care for high-risk populations. A new child 
in the care of those who have a history of abuse is undoubtedly at the 
highest risk of all, yet, incredibly, it is exactly those cases that 
are permanently closed and the abusive parent is basically free to have 
additional children without any services or follow-up to help prevent 
abuse of these new children--exactly as occurred in the Broadway twins' 
case.
    It is unrealistic to believe that the Baltimore City Department of 
Social Services and Child Protective Services can change overnight. 
Undoubtedly, they have an uphill battle where fiscal and human 
resources limitations are consistent obstacles. However, a review of 
these recommendations shows that the vast majority of the suggestions 
are cost neutral, simply requiring a redistribution of resources or a 
revised mindset.
    Recently, we have begun to hear from the State's Secretary for 
Human Resources and the Director of Baltimore City's Department of 
Social Services. Frankly, I have been disappointed by the vague 
responses to our recommendations and the middling willingness to 
redress the gaps in operations, policy, and strategy of this CPS 
system. There is also a terrible lack of urgency in addressing these 
gaps.
    I fear that the State is in danger of talking about this issue ad 
nauseum without institutions actually changing. The case of Emunnea and 
Emonney Broadway is one that will never fail to stir emotion. It is my 
hope that as legislators and leaders our emotions will be stirred to 
mandate State involvement in any family where children have been 
previously removed.
    Thank you for your time and devotion to these issues.
                               __________

             Child Welfare Reform Committee Recommendations

                       Dr. Peter Beilenson, Chair

    Recommendations: The recommendations listed are concrete steps to 
begin reform for this agency in crisis. The Committee's recommendations 
include ``Process Recommendations'' which include reforms for 
reporting, responding, decision-making, placement, and ongoing 
services. ``Global Recommendations'' include overall systemic and 
philosophical changes.

                        Process Recommendations

Reporting

    <bullet>  Improve effectiveness of CPS call center by increasing 
training and staffing. Committee members found wait-times for calls to 
report abuse or neglect to be over 30 minutes at times and conducted by 
unprofessional operators.

Responding

    <bullet>  Staff Johns Hopkins Hospital 24 hours per day, 7 days per 
week. These facilities are the primary medical centers for children 
suspected to be victims of child abuse. A large proportion of incidents 
occur on nights and weekends, and while the hospitals' pediatric 
emergency departments are open 24 hours a day, 7 days a week, there is 
not a DSS worker to seek care for the child at these hours. Currently, 
an abused or neglected child may sit in the emergency room alone hours 
waiting for DSS attention.
    <bullet>  Implement on-call system to respond to child abuse crises 
at other hospitals. Should another hospital identify an injury or 
condition outside of business hours, DSS should be able to send a 
worker on-call.

Decision-Making

    <bullet>  Stat-like roundtable prior to court hearing should allow 
more thoughtful, informed decision-making. An interdisciplinary review 
of case files, reminiscent of our KidStat process, would prepare 
involved parties for court day and hold DSS caseworkers accountable. We 
hope that this collaborative approach will decrease the likelihood of a 
child being returned to a dangerous home at the discretion of just one 
caseworker.
    <bullet>  Triage process needed to identify cases that should be 
presented for roundtable discussion. With over 7,500 BaltimoreCity 
children in out-of-home placements it would be neither feasible nor 
necessary to bring every case to a roundtable review. Triage must 
assure that only cases that require discussion be considered in this 
formal way.
    <bullet>  Streamline process of scheduling workers to be in court. 
Caseworkers' time in court, though essential, detracts from case 
management and time with children. DSS, similar to other court-
appearing agencies (i.e. Police), should thoughtfully schedule 
appearances.
    <bullet>  Institute ``one judge, one family'' approach in 
scheduling CINA proceedings. Since CINA cases involve a sequence of 
hearings and court involvement, which can extend over the length of a 
child's life as a minor, assigning one judge to all of a child's or all 
of a family's court affairs is a logical measure. More informed, 
consistent judicial decision-making should result if the same judge or 
master were to hear all proceedings related to a particular child or 
family. Furthermore, the courts would save time because the judge 
should already know the background of the case. ``One judge, one 
family'' should also prevent court decisions that may place a DSS child 
in harm's way. Jurisdictions all over the country have instituted this 
measure.

Placement

    <bullet>  Increasing foster care parent recruitment. The low number 
of foster parents in comparison to the number of children needing out-
of-home care, contributes to overcrowded and suboptimal placements.
    <bullet>  Check criminal background and child abuse registry. While 
potential foster care/adoptive parents and guardians not related to the 
child receive extensive criminal background checks. However, family 
members who are providing kinship care do not receive background 
checks. All out-of-home placements should experience the same level 
investigation as foster applicants, including an application for 
guardianship.I
    <bullet>  nclude mental health history in application for foster 
care and guardianship. In an effort to better place children, it should 
be required that all foster care and guardianship applicants include 
their mental health history in the application. The current uneven 
screening of guardians was a factor in recent high-profile deaths.

Ongoing Services

    <bullet>  Utilize a high standards approach in order to achieve 
100% of required services for children in out-of-home care. As a 
response to the October 2003 legislative audit, which showed that DSS 
was not meeting bench marks for ongoing services, the Department should 
be guided to assure that 100% of children in out-of-home care:

        <bullet>  receive recommended therapy
        <bullet>  have monthly face-to-face meetings with DSS worker 
        receive annual well-child exam
        <bullet>  receive required annual dental exams
        <bullet>  are enrolled in school
        <bullet>  have their caregivers contacted monthly by DSS have 
        their homes/facilities subjected to annual health and safety 
        inspections

    <bullet>  Institute a case file checklist procedure to assure 
children's receipt of these services.L Placing a checklist in 
caseworker's files should allow caseworkers and supervisors to best 
keep track of these services. As the Department increasingly employs 
information technology, this type of checklist recordkeeping may be 
computerized as well.

                         Global Recommendations

    <bullet>  Recruit more trained social workers as opposed to current 
human service workers. A small proportion of caseworkers are actually 
trained social workers presumably due to the high stress and workload 
of the position.
    <bullet>  Equip CPS offices with adequate information technology. 
Technological capacity at Baltimore City DSS can hinder productivity.
    <bullet>  Change emphasis from ``family preservation'' to ``child 
protection.'' Though ``child protective'' in name, CPS has historically 
taken a turn toward keeping family intact--often in instances that do 
children more harm than good.
    <bullet>  Revisit confidentiality laws; consider allowing the 
release of case files following child fatality. Revealing the 
information like the caseworker's name upon a child's fatality could be 
a tremendous source of accountability in DSS.
    <bullet>  Design measures to protect future children of a parent 
who has been convicted of abusing of previous children. Currently, 
there are no measures in place to supervise a convicted child-abusing 
parent who has goes on to have more children. The Child Fatality Review 
Team has seen multiple deaths as a result of this abusive pattern.
    <bullet>  Redefining child's best interest. Over time, the court's 
definition of a ``child's best interest'' has strayed from true 
consideration of the health and safety of the child. Future legislation 
may be necessary to guide this philosophical change.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Beilenson. Dr. DePanfilis 
to testify.

    STATEMENT OF DIANE DEPANFILIS, CO-DIRECTOR, CENTER FOR 
   FAMILIES, SCHOOL OF SOCIAL WORK, UNIVERSITY OF MARYLAND, 
                      BALTIMORE, MARYLAND

    Dr. DEPANFILIS. Okay. Thank you, Mr. Chairman and other 
Members of the Subcommittee. I speak to you today as a social 
worker with over 30 years of experience in child abuse and 
neglect issues, currently as a researcher and educator at the 
University of Maryland's School of Social Work. What can we 
learn from this tragic situation which we have already heard 
the details about from our other witnesses? I offer three 
suggestions: first, I believe it is time for a paradigm shift 
in the way our child protection service systems are designed. 
Second, I emphasize the importance of working across 
disciplines and community systems, which reinforces what Dr. 
Beilenson just emphasized also. Third, I emphasize the 
importance of using evidence-based practices, using what we 
know has a greater chance of working to deal with this complex 
problem of child abuse and neglect.
    I need to emphasize that none of these points are new 
ideas, and I think that we have known much more than we have 
applied over the years, if we sort of trace the chronology from 
the first enactment of the Child Abuse Prevention and Treatment 
Act (CAPTA) (P.L. 93-247). My written testimony elaborates on 
all these points in much more detail, but I am just going to 
highlight a couple of those in the oral testimony. It is my 
opinion that one of the principal failures to respond to 
protect these two infants, or any other children that might be 
classified as at risk of child abuse and neglect, is because 
our system is designed to respond only to the most serious 
cases. Our definition of child abuse and neglect requires there 
to be an act or omission that results in harm or serious threat 
of harm. In this case, the facts are unclear how much of that 
was actually reported, actual harm at that point in time. So, 
without pointing fingers, and without dwelling on that, I think 
we really need to take a look at whether or not that type of 
revolving door makes the most sense given where we are today.
    My research, as well as other research, have suggested that 
families may be reported for child maltreatment as many as 25 
times over 5 years. That was research where I followed families 
over 5 years in Baltimore City. The system continues to screen 
out, investigate, and serve the same families over and over 
again, and we often fail to stop this pattern that continues 
sometimes for generations. It is no wonder that this particular 
case record is 5 inches thick, and I think we see many, many, 
many other situations similarly.
    Despite the fact that research indicates that when you have 
a chance to help a family the first time they are known to some 
system, we tend to fail to respond to families until situations 
are seriously complex, perhaps fatal, and, therefore, the 
chance of success is not great. I have an analogy in my written 
testimony to try to highlight the importance here, suggesting 
that if you detected a cyst that you would worry might be 
cancer, it would be the same thing as being told you have to 
wait to get medical treatment until the possibility of cure is 
almost nonexistent. I think that is the picture that we have in 
today's child protection system.
    In my opinion, protecting children seems to occur more by 
chance than through a system that is structured to respond 
differentially based on the safety needs of families and of 
children. I do think there has been some movement in some 
States to change this picture, and it is called the System of 
Differential Response. In the States that are trying a new 
reform of the child welfare system, systems are redesigned to 
deliver quality supportive services the first time there is a 
red flag, and instead of waiting for children to experience 
serious and sometimes fatal injuries from neglect and abuse, 
there is a triage system where community agencies can work 
together to respond differentially to those needs. The second 
point that I emphasize is the importance of interdisciplinary 
efforts, which you have already heard about, so I will not go 
forward on that. The third thing that I was asked to discuss is 
the importance of using evidence-based practices in our 
response to child abuse and neglect. Child abuse and neglect 
does not happen in the same way in all situations. It is a 
complex problem that really requires complex solutions, and I 
think we need to use the evidence and the research that helps 
us understand what works best in certain situations.
    The Office on Child Abuse and Neglect presented the results 
of the Emerging Practices in the Prevention of Child Abuse and 
Neglect Project, which was initiated to try to identify some of 
these effective programs, and in the context of that work, our 
Family Connections Program in West Baltimore was highlighted as 
one of the programs that was deemed demonstrated effective. The 
results that we are pleased to report about in this project, 
which was quite small, reaching out to families before they 
were known to child abuse and neglect, suggested that over a 
short period of time, families could be helped to increase 
protective factors related to parenting attitudes, parent 
competence, social support; decrease known risk factors for 
child abuse and neglect, like depression and parenting stress, 
and life stress; and improve safety, both physical care, 
psychological care; and the prevention of child abuse and 
neglect known to CPS agencies.
    In summary, I think if we want to prevent future fatalities 
due to child abuse and neglect, we really need to drastically 
reform the way our community systems are structured. We need to 
look at this promising effort called differential response, or 
other ways to get responses to families before serious or fatal 
injuries occur. We need to work more effectively together using 
evidence-based practice strategies. Thank you. I would be happy 
to answer any questions.
    [The prepared statement of Dr. DePanfilis follows:]
Statement of Diane DePanfilis, Ph.D., Co-Director, Center for Families, 
   University of Maryland, School of Social Work, Baltimore, Maryland
    Mr. Chairman and members of the subcommittee, my name is Diane 
DePanfilis. I am an Associate Professor, Director of the Institute for 
Human Services Policy, and Co-Director of the Center for Families at 
the University Of Maryland School Of Social Work. I have more than 
thirty years of experience in the child protection field as a social 
worker, supervisor, administrator, national consultant, and researcher. 
I am the co-author of Child Protective Services: A guide for 
caseworkers \1\ published by the Department of Health & Human Services 
(HHS), Children's Bureau, co-editor of the Handbook for Child 
Protection Practice,\2\ and a former President of the Board of 
Directors of the American Professional Society on the Abuse of 
Children. Last year, I conducted an important study on the 
investigatory practices of reported child abuse and neglect in out-of-
home care in the state of New Jersey in collaboration with Children's 
Rights, Inc. I have been a consultant with the state of California and 
other states as they undertake efforts to reform their child protection 
systems and I am on an advisory committee for the University of 
Chicago's Chapin Hall Center for Children related to a study of the 
impact of some of these reforms. I am also currently collaborating with 
the Institute for the Advancement of Social Work Research with support 
from the Annie E. Casey Foundation on a study of the effectiveness of 
practices to retain professionally prepared social workers in public 
child welfare.
---------------------------------------------------------------------------
    \1\ DePanfilis, D., & Salus, M. (2003). Child Protective Services: 
A guide for caseworkers. Washington, D.C.: U.S. Department of Health 
and Human Services, Administration on Children and Families, 
Administration for Children, Youth, and Families, Children's Bureau, 
Office on Child Abuse and Neglect.
    \2\ Dubowitz, H., & DePanfilis, D. (Eds.). (2000). Handbook for 
child protection practice. Thousand Oaks, CA: Sage.
---------------------------------------------------------------------------
    Thank you for inviting me to present my views on the safety of 
children following the tragic death of two infants in Baltimore. I 
commend you and the committee for undertaking a series of hearings on 
the safety of maltreated children in this country. Today, I speak to 
you based on my research and experience with child protection systems 
in Baltimore. I have studied: (1) the recurrences of child maltreatment 
in Baltimore in collaboration with the Baltimore City Department of 
Social Services; (2) screening practices regarding child abuse and 
neglect reporting in Baltimore and other jurisdictions in collaboration 
with the Maryland Department of Human Resources and the State Council 
on Child Abuse and Neglect; and (3) the efficacy of a promising 
preventive intervention in West Baltimore called Family Connections. My 
views are based on my experiences as a social worker and researcher and 
I do not formally represent any group.
    What can we learn from this tragic situation in which two young 
lives were lost? I offer three related suggestions. First I believe 
that it is time for a paradigm shift in the way our child protection 
systems are designed. Second, I emphasize the importance of working 
across disciplines and community systems. Third, I emphasize the 
importance of using evidence-based practices to respond to the complex 
problem of child abuse and neglect. These are not new ideas.

Too Little Too Late: Time For a Paradigm Shift

    Our current laws our designed for the public child protection 
system to respond when there is a reason to believe that a child has 
already been harmed or is at serious risk of harm. Only a very small 
percentage of the children and families with maltreatment or risks of 
maltreatment actually receive help. Over ten years ago, the Federal 
Advisory Board on Child Abuse and Neglect declared that the child 
protection system was in a State of Emergency.\3\ The state of 
emergency continues.
---------------------------------------------------------------------------
    \3\ U.S. Advisory Board on Child Abuse and Neglect. (1993). 
Neighbors helping neighbors: A new national strategy for the protection 
of children. Washington, DC: Department of Health and Human Services, 
Administration for Children and Families.
---------------------------------------------------------------------------
    Let's begin with the call to CPS. CPS workers are charged with 
screening reports of child abuse and neglect according to definitions 
in state laws.\4\ If the alleged concerns do not meet the state 
definition of child maltreatment, workers make appropriate decisions by 
not accepting reports for investigation. The Child Abuse Prevention and 
Treatment Act (CAPTA) sets the standards for a state definition of 
child abuse and neglect. The term ``child abuse and neglect'' means, at 
a minimum, any recent act or failure to act on the part of a parent or 
caretaker, which results in death, serious physical or emotional harm, 
sexual abuse or exploitation, or an act or failure to act which 
presents an imminent risk of serious harm.\5\
---------------------------------------------------------------------------
    \4\ Wells (2000). How do I decide whether ot accept a report for a 
child protective services investigation? In H. Dubowitz & D. DePanfilis 
(Eds.), Handbook for child protection practice (pp. 3-6), Thousand 
Oaks, CA: Sage.
    \5\ U.S. DHHS, Administration for Children and Families, 
Administration on Children, Youth, and Families, Children's Bureau, 
Office on Child Abuse and Neglect (2003). The Child Abuse Prevention 
and Treatment Act including Adoption Opportunities and the Abandoned 
Infants Assistance Act, as amended by the Keeping Children and Families 
Safe Act of 2003. Washington, DC: Author. Retrieved June 6, 2004 at 
http://nccanch.acf.hhs.gov/general/legal/federal/index.cfm.
---------------------------------------------------------------------------
    While I am not familiar with the ``facts'' of the Baltimore City 
case other than what I have read in the Baltimore Sun, I'm not sure 
that a report that alleged that a mother who was known to social 
services as a foster care runaway from whom a previous child had been 
taken away because of abuse and neglect \6\ would constitute an 
imminent risk of serious harm.
---------------------------------------------------------------------------
    \6\ Klein, A. (2004, May 24) Officials seeking better safeguards to 
protect children from abuse. Baltimore Sun, 2b.
---------------------------------------------------------------------------
    It is my opinion that the failure to respond to protect these 
children is not the failure of the CPS agency, but a failure of our 
state laws that dictate that children need to be harmed or at imminent 
risk of harm before someone in the community responds.
    What do we know about screening practices in Maryland? In 2001, a 
collaborative research team reviewed all screened out reports of child 
abuse and neglect in Maryland for one month. Reviewers, including 
University researchers and state policy analysts, determined that most 
(83%) of the screening decisions made that month were consistent with 
state policies.\7\ Of the 5,023 referrals received by 24 local CPS 
jurisdictions in the study month, an average of 36% of referrals was 
screened out. The proportion of referrals screened out significantly 
differed between jurisdictions ranging from 62.5% to 5.6%. Larger 
jurisdictions tended to screen out fewer referrals (29.8% in 
BaltimoreCity; 25.7% in Prince George's County) than the state average 
(36%). These variations are consistent with screening practices 
nationally. Screening rates vary substantially between states from a 
low of 1.7% in Alabama to a high of 72.3% in Maine.\8\
---------------------------------------------------------------------------
    \7\ DePanfilis, D. (2003). Report of the Research Committee to the 
State Council on Child Abuse and Neglect. Baltimore: Author.
    \8\ US DHHS, Administration for Children and Families, 
Administration on Children, Youth, and Families (2004). Child 
maltreatment 2002: Reports from the states to the national Child Abuse 
and Neglect Data System. Washington, DC: U.S. Government Printing 
Office. Retrieved June 3, 2004 at www.acf.hhs.gov/programs/cb/
publications/cmreports.htm.
---------------------------------------------------------------------------
    It is my opinion that assessing the safety of children occurs 
inconsistently between local and state jurisdictions. Society should 
not wait until a child has experienced a serious or fatal injury before 
responding to referrals of concern about children at risk of 
maltreatment. Our community systems must be available to respond to all 
families at risk for child maltreatment.
    For some families, the child protection system is like a revolving 
door. My research, as well as research, by others has found that 
families may be reported for child maltreatment as many as 25 times in 
five years.\9\ The system continues to screen out, investigate, and/or 
serve the same families over and over again as we often fail to stop a 
pattern that sometimes continues for generations. Despite the fact that 
research also indicates that we have a chance to alter this picture if 
families can be helped the first time someone recognizes a problem, our 
systems too often get involved too late. We are serving only the tip of 
the iceberg and waiting too long to offer help that has any chance of 
success. Imagine detecting a cyst that has a chance of being diagnosed 
as cancer but being told you can't access medical care until the 
chances of recovery are almost nonexistent.
---------------------------------------------------------------------------
    \9\ DePanfilis, D., & Zuravin, S. J. (2002). The effect of services 
on the recurrence of child maltreatment. Child Abuse and Neglect, 26, 
187-205; DePanfilis, D., & Zuravin, S. J. (2001). Assessing risk to 
determine the need for services. Children and Youth Services Review, 
23, 3-20; DePanfilis, D., & Zuravin, S. J. (1999). Predicting child 
maltreatment recurrences during treatment. Child Abuse and Neglect, 23 
(8), 729-743; DePanfilis, D., & Zuravin, S. J. (1999). Epidemiology of 
child maltreatment recurrences. Social Services Review, 73, 218-239; 
DePanfilis, D., & Zuravin, S. J. (1998). Rates, patterns, and frequency 
of child maltreatment recurrences among public CPS families. Child 
Maltreatment, 3, 27-42.
---------------------------------------------------------------------------
    It is my opinion that as a society we must develop new strategies 
for early detection and response to families at risk for child 
maltreatment.
    In 2002, state CPS agencies received 2.6 million referrals alleging 
maltreatment related to 4.5 million children.\10\ Of the referrals 
accepted as a report and investigated, more than half of the reports 
(60.4%) led to a finding of unsubstantiated suggesting that sufficient 
evidence of child abuse or neglect was not found by the CPS worker. In 
contrast, an estimated 896,000 children were determined to be victims 
of child abuse or neglect in 2002 based on determining that a report 
was substantiated or indicated. There is growing consensus that the 
legalistic process of reporting, investigating, and substantiating or 
unsubstantiating does not lead to the protection of children.\11\ While 
some reports that are unsubstantiated may not require a community 
response, it is likely that at least some of these reports represent 
children and families who could benefit from family support or other 
community services that may prevent child abuse or neglect in the 
future.
---------------------------------------------------------------------------
    \10\ US DHHS (2004).
    \11\ Drake, B. (1996). Unraveling unsubstantiated. Child 
Maltreatment, 1 (3), 261-271; Melton, G. B. (2003, October). Mandated 
reporting: A policy without a reason. Commentary prepared for a virtual 
discussion sponsored by the International Society for Prevention of 
Child Abuse and Neglect.
---------------------------------------------------------------------------
    In the current system, most reports of child abuse and neglect do 
not result in services to prevent the occurrence or recurrence of child 
maltreatment (DHHS, 2004). Think of a funnel. Extrapolating from 
national reporting data, consider the following scenario. Out of every 
100 reports of child abuse and neglect, 67.1 are screened in for an 
investigation. Of those 67 reports, 20 (30.3%) are substantiated or 
indicated. Of those, 11.8 children may receive a service response 
beyond an investigation of the report. The deaths of these infants in 
Baltimore is an example of a tragic situation that may have been 
screened out from receiving the benefit of a safety assessment.
    It is my opinion that protecting children seems to occur more by 
chance than through a system that is structured to respond 
differentially based on the safety needs of children and families.
    The beginnings of a paradigm shift. As others \12\ have asserted, 
the system designed to protect children is not working. In 1990, the 
U.S. Advisory Committee made a most compelling argument that we 
ignored. The most serious shortcoming of the nation's system of 
intervention on behalf of children is that it depends upon a reporting 
and response process that has punitive connotations and requires 
massive resources dedicated to the investigation of allegations. State 
and County child welfare programs have not been designed to get 
immediate help to families based on voluntary requests for assistance. 
As a result, it has become far easier to pick up the telephone to 
report one's neighbor for child abuse than it is for that neighbor to 
pick up the telephone and receive help before the abuse happens.\13\
---------------------------------------------------------------------------
    \12\ See for example, Waldfogel, J. (1998). Rethinking the paradigm 
for child protection. The Future of Children Protecting Children from 
Abuse and Neglect, 8 (1) 104-119.
    \13\ U.S. Advisory Board on Child Abuse and Neglect (1990). Child 
abuse and neglect: Critical first steps in response to a national 
emergency. Washington, DC: Author.
---------------------------------------------------------------------------
    It is time to consider that there must be a better way. During the 
past 10 years, there has been a growing consensus that states and 
communities need to change the way they protect children, and many 
states have taken the charge to make the protection of children a 
community responsibility. One type of reform to child protection 
systems has been implemented: differential response. These newly 
designed differential response systems provide non-adversarial, 
flexible responses to individual family circumstances. Systems are 
redesigned to deliver quality supportive services the first time red 
flags are identified instead of waiting for children to experience 
serious and sometimes fatal injuries from neglect or abuse. Community 
agencies, in partnership with child protective services, work to triage 
services so that together the community can help families meet the 
basic needs of their children and keep them safe. A national study of 
child welfare reforms \14\ identified twenty states that offer one or 
more alternatives to the traditional CPS investigative response. While 
it is not yet clear whether these efforts will yield better outcomes 
for children, some early evaluation results are promising.\15\ States 
have reported improvements in child safety and child and family well-
being compared to families served through traditional services. 
Previous testimony before this subcommittee by Tom Birch on behalf of 
the National Child Abuse Coalition (2004) has already outlined 
information about the costs of not investing in prevention and early 
intervention.
---------------------------------------------------------------------------
    \14\ U.S. Department of Health and Human Services, Office of the 
Assistant Secretary for Planning and Evaluation and Administration for 
Children and Families, Administration on Children, Youth and Families, 
Children's Bureau (2003). National Study of Child Protective Services 
Systems and Reform Efforts Review of State CPS Policy. Washington, DC: 
Author. Retrieved June 6, 2004 at http://aspe.hhs.gov/hsp/cps-status03/
state-policy03/.
    \15\ Institute of Applied Research. (1998, January). Missouri child 
protection services family assessment and response demonstration impact 
evaluation: Digest of findings and conclusions. St. Louis, MO: Author.

---------------------------------------------------------------------------
Working Together Across Systems

    Protecting children is a community responsibility. This statement 
has been emphasized since the enactment of CAPTA in the 70s. For 
example, the current edition of one of the federal government's user 
manuals suggests that all relevant professionals must be aware of their 
role in child protection and the unique knowledge and skills they bring 
to their community's prevention and intervention efforts. They must 
also understand the roles, responsibilities, and expertise of other 
professionals.\16\ All practitioners must also have sufficient 
competence and time to perform the roles they are assigned. Federal and 
state governments have invested considerable resources to require 
multidisciplinary teams and state coordinating bodies to collaborate in 
broad efforts to protect children. Unfortunately, these requirements do 
not always ensure that all professionals and organizations will work 
together on a daily basis. And there are some disagreements about how 
these multidisciplinary teams really should work.\17\ Child abuse and 
neglect is a complex problem that requires interdisciplinary efforts. 
That means we must work together, not side by side. The tragic case of 
the twins in Baltimore is an example of serious failures in multiple 
systems. Pointing fingers and blaming each other will not prevent 
future failures. Coming together and developing ways to work together 
on a daily basis will keep children safe. This is not a situation of 
not knowing how. It means we must have the will to make it happen. In 
Baltimore, Secretary McCabe and Director Blair, other witnesses here 
today, have already taken steps to bring groups together. We must 
tackle the serious barriers to keeping children safe as new protocols 
and procedures are established to prevent future avoidable tragedies.
---------------------------------------------------------------------------
    \16\ Goldman, J. & Salus, M. (2003). A coordinated response to 
child abuse and neglect the foundation for practice.  Washington, DC: 
US DHHS, ACF, ACYF, Children's Bureau, Office on Child Abuse
    Institute of Applied Research. (2003, February). Minnesota 
alternative response evaluation second annual report: Executive 
summary. St. Louis, MO: Author; Texas Department of Protective and 
Regulatory Services. (1999). Flexible response evaluation. Austin, TX: 
Author; VirginiaDepartment of Social Services. (1999). Final report on 
the multiple response system for Child Protective Services in Virginia. 
Richmond, VA: Author.
    \17\ Wilson, C. & McGrath, P. (2004, Spring). In search of a new 
model for coordinated urban child abuse investigations. APSAC Advisor, 
16 (2), 5-10.

---------------------------------------------------------------------------
Evidence-Based Practices

    Since child neglect and abuse are rooted in multiple and 
interacting intrapersonal, interpersonal, and environmental factors, no 
one intervention or treatment is expected to be effective in all 
situations.\18\ Even though research on what works to prevent and 
respond to child maltreatment is limited, recent reviews of 
intervention and treatment effectiveness have identified some core 
elements.\19\ As we reassess the field's response to child abuse and 
neglect, it is incumbent that we employ methods to prevent and respond 
to child abuse and neglect which have some evidence that they are 
effective in reducing the risk of child maltreatment.
---------------------------------------------------------------------------
    \18\ National Research Council (1993). Understanding child abuse 
and neglect. Washington, DC: National Academy Press.
    \19\ Becker, J.V., Alpert, J. L, BigFoot, D. S., Bonner, B. L., 
Geddie, L. F., Henggeler, S. W., Kaufman, K. L., & Walker, C. E. 
(1995). Empirical research on child abuse treatment: Report by the 
child abuse and neglect treatment working group, American Psychological 
Association. Journal of Clinical Child Psychology, 24, 23-46; Corcoran, 
J. (2000). Family interventions with child physical abuse and neglect: 
A critical review. Children and Youth Services Review, 22, 563-591; 
DePanfilis, D. (1999). Intervening with families when children are 
neglected. In: H. Dubowitz (Ed.). Neglected children (pp. 211-236). 
Newbury Park, C: Sage; Kluger, M. P. Alexander, G., Curtis, P. A. 
(2000). What works in child welfare. Washington, DC: Child Welfare 
League of America; Oates, R. K., & Bross, D. C. (1995). What have we 
learned about treating child physical abuse? A literature review of the 
last decade. Child Abuse & Neglect, 19, 463-473; Thomlison, B. (2003). 
Characteristics of evidence-based child maltreatment interventions. 
Child Welfare, 82, 541-569; Wolfe, D. A. (1994). The role of 
intervention and treatment services in the prevention of child abuse 
and neglect. In G. B. Melton & F. D. Barry (Eds.), Protecting children 
from abuse and neglect foundations for a new national strategy (pp. 
224-303).  New York: Guilford; Wolfe, D.A., & Wekerle, C. (1993). 
Treatment strategies for child physical abuse and neglect: A critical 
progress report. Clinical Psychology Review, 13, 473-500.
---------------------------------------------------------------------------
    In 2003, the Office on Child Abuse and Neglect (OCAN) presented the 
results of the Emerging Practices in the Prevention of Child Abuse and 
Neglect project, which was initiated to identify effective and 
innovative programs in child abuse and neglect prevention around the 
nation. In partnership with the prevention community, OCAN implemented 
this review to elevate understanding of prevention programs and 
initiatives, and to share information on emerging and promising 
practices with the field.\20\
---------------------------------------------------------------------------
    \20\ U.S. Department of Health and Human Services [U.S.DHHS]. 
(2003). Emerging practices in the prevention of child abuse and 
neglect. Washington, D.C.: Author.
---------------------------------------------------------------------------
    In coming here today, I was asked to speak briefly about a program 
called Family Connections in West Baltimore, which was deemed 
``demonstrated effective'' by the OCAN initiative. Family Connections 
received this designation because the Advisory Group determined that 
the program had undergone rigorous evaluation using an experimental 
design with random assignment, and the results demonstrated positive 
outcomes for participants.
    Family Connections is a multi-faceted, community-based service 
program that works with families in the context of their neighborhoods 
to help them meet the basic needs of their children and reduce the risk 
of child neglect. The program was developed by the University Of 
Maryland School Of Social Work in collaboration with the School of 
Medicine and the Department of Pediatrics. It was launched through a 
federal demonstration project funded in 1996 and has since been 
supported by a combination of federal, state, private foundation, and 
other sources. The mission of Family Connections is to enhance the 
safety and well-being of children and families by combining education 
of graduate social work interns, services to families in the West 
Baltimore Empowerment Zone, and research about the process and outcomes 
of the intervention. Our goal is to reach families and to prevent the 
need for a formal child protective services intervention.
    The program was designed to specifically target factors known to 
increase the risk of child neglect. The choice to focus on the 
prevention of neglect came out of research on the recurrence of child 
abuse and neglect in Baltimore. The program operates from an ecological 
developmental framework using Bronfenbrenner's \21\ theory of social 
ecology as the primary theoretical foundation. Child neglect is thought 
to evolve when risk factors related to the child, caregivers, family 
system, and environment challenge the capacity of caregivers and 
broader systems to meet the basic needs of children. Family Connections 
uses a home-based, family-centered model of practice consistent with 
other home-based, tailored intervention approaches.\22\ Nine practice 
principles guide FC interventions: community outreach; individualized 
family assessment; tailored interventions; helping alliance; 
empowerment approaches; strengths perspective; cultural competence; 
developmental appropriateness; and outcome-driven service plans.\23\ 
Individualized intervention is geared to increase protective factors 
and decrease risk factors.
---------------------------------------------------------------------------
    \21\ Bronfenbrenner, U. (1979). The ecology of human development: 
Experiments by design and nature. Cambridge, MA: Harvard University 
Press.
    \22\ Dunst, C.J., Trivette, C.M. and Deal, A.G. (1988). Enabling 
and empowering families: Principles and guidelines for practice. 
Cambridge, MA; Brookline Books; Kinney, J., Strand K., Hagerup M., & 
Bruner C. (1994). Beyond the buzzwords: Key principles in effective 
frontline practice. Falls Church, VA: NCSI Information Clearinghouse.
    \23\ DePanfilis, D., Glazer-Semmel, E., Farr, M., & Ferretto, G. 
(1999). Family Connections intervention manual. Baltimore: University 
of Maryland, Baltimore. Retrieved June 15, 2004 from http://
www.family.umaryland.edu.
---------------------------------------------------------------------------
    The core components of Family Connections include: (1) emergency 
assistance; (2) home-based family intervention (family assessment, 
outcome driven service plans, individual and family counseling); (3) 
service coordination with referrals targeted toward risk (e.g., 
substance abuse treatment) and protective factors (e.g., mentoring 
program); and (4) multi-family supportive recreational activities.
    Research supported through the demonstration project illustrates 
positive improvements for children, caregivers, and families.\24\ The 
sample included 154 families (473 children) in a poor, urban 
neighborhood, who met risk criteria for child neglect, and who were 
randomly assigned to receive either a 3--or 9-month intervention. Self-
report and CPS data were collected prior to, at the end of, and six-
months post intervention. Observational assessments were made at the 
beginning and the end of the intervention. Data were analyzed using 
analyses of variance (ANOVA) with repeated measures. Results for the 
entire sample indicated:
---------------------------------------------------------------------------
    \24\ DePanfilis, D. (2002). Helping families prevent neglect final 
report. Study funded by the U.S. Department of Health and Human 
Services, Children's Bureau 1996-2002 (Grant Number 90CA1580). 
Baltimore, MD: University of MarylandSchool of Social Work. Retrieved 
June 15, 2004 at http://www.family.umaryland.edu; DePanfilis, D., & 
Dubowitz, H. (Submitted for peer review, January 2004). Family 
Connections: Preventing child neglect--promoting well-being and safety.

    <bullet>  enhanced protective factors (parenting attitudes, 
parenting competence, social support);
    <bullet>  diminished risk factors (parental depressive symptoms, 
parenting stress, life stress);
    <bullet>  improved child safety (physical and psychological care of 
children); and
    <bullet>  strengthened child well-being (decreased externalizing 
and internalizing behavior).

    The nine-month intervention was more effective in certain areas 
compared to the three-month intervention (e.g., fewer caregiver 
depressive symptoms, fewer child behavior problems). Prior to Family 
Connections' intervention, CPS had received 274 reports of child abuse 
or neglect related to 87 of the 154 families (56.5%) in this sample. 
Fifty-nine (38.3%) of these reports were indicated. While Family 
Connections was providing intervention, twenty-four CPS reports were 
made related to seventeen families (11% of 154 families), and 12 of 
these were indicated. Six months following the closure of intervention, 
searches on 139 families found that there had been eleven reports made 
to CPS. (Fifteen families had less than six months follow-up time and 
were not included in the search). Five of the fifteen reports were for 
three-month families and six were for nine-month families. Of these 11 
reports, five of them were indicated (four for three-month families and 
one for nine-month families). The low number of reports overall 
precluded tests of significance between groups. Family Connections 
appears to be a promising model for preventing neglect and enhancing 
children's safety and well-being. Limitations of this original project 
are now being addressed through the replication of this program in 8 
sites. The Office on Child Abuse and Neglect has funded one replication 
in Baltimore which is targeting grandparents raising grandchildren. 
Other projects are funded in California (2 programs); Michigan; Texas 
(2 programs); West Virginia; and Tennessee. Further information about 
this program may be found at the Family Connections' web site at http:/
/www.family.umaryland.edu
    A workshop on the program will also be presented at the U.S. 
Department of Health and Human Services, Administration for Children 
and Families, Children's Bureau sponsored Biennial Child Welfare 
Conference: Focus on Evidence Based Practice being held on June 29th, 
2004 at the Marriott Wardman Park Hotel in Washington, D.C. This 
national conference will provide training experiences and best practice 
models in child welfare as well as many opportunities for collaboration 
and partnership building. It is expected to bring together 500 
participants across the spectrum of child welfare. The participants 
will include state child welfare directors, policy makers, judicial 
representatives, federal, state and local agencies, community-based 
organizations, faith-based organizations, advocacy groups, direct 
service providers, related associations, and other partners in the 
field.

Lessons Learned

    In summary, I firmly believe that if we want to prevent future 
fatalities due to child abuse and neglect, we need to drastically 
reform the way our communities are structured to respond to families 
who may be at risk for child abuse and neglect. Governments ought to 
facilitate the development of community environments that by their 
nature provide family support and that ensure watchfulness for 
children. Help--and, if necessary, monitoring and control--ought to be 
built into primary community settings in a manner that minimizes 
intrusions on privacy and that improves the everyday quality of life 
for children and families, whatever their vulnerability and needs.\25\ 
One such promising method for accomplishing this goal may be to reform 
child protection systems to differentially respond to children and 
families. We must also practice working together systematically on a 
daily basis.
---------------------------------------------------------------------------
    \25\ Melton, 2003, p. 9.
---------------------------------------------------------------------------
    Finally, more attention needs to be paid to testing strategies to 
prevent and intervene so that we more efficiently use the limited 
resources available to dedicate to this major social problem. Despite 
gains in evaluating the effectiveness of interventions in the past ten 
years, we do not yet completely understand what interventions work with 
whom and under what conditions. Federal and state support for research 
on the effectiveness of child maltreatment related prevention and 
intervention efforts are limited. If we want to invest in programs that 
work to help children and families achieve safety and well-being, we 
must undertake rigorous studies on the efficacy and effectiveness of 
different program models.
    Thank you for an opportunity to express my opinions about what we 
may learn from this tragic situation in Baltimore.

                                 <F-dash>

    Chairman HERGER. Thank you very much. The gentleman from 
Michigan, Mr. Camp to inquire.
    Mr. CAMP. Thank you, Mr. Chairman. Dr. Beilenson, it seems 
to me that the hospital had an obligation to do more than 
simply place a phone call to a clerk. You had a single parent 
coming in with twins and low birth weight. All the red flags 
went off that this person should not have been just simply sent 
home. Can you just tell me a little bit about why the hospital 
did not do more?
    Dr. BEILENSON. Yes. I actually know about the case. I am 
just the City Health Commissioner, I don't work at Johns 
Hopkins, but I actually do know the case, and I have also said 
in the press that I think the Secretary and Mr. Blair have kind 
of taken too much of the heat; that not only did Johns Hopkins 
make that call, they actually knew, and the referral form that 
was eventually sent did have on it that they knew a permanent 
removal had occurred. So, I do think it was incumbent on Johns 
Hopkins staff to have gone ahead and called CPS, even though 
they were told by the clerk that there was no open case.
    Mr. CAMP. So, they had other knowledge?
    Dr. BEILENSON. They did have other knowledge. So, that is 
why it shouldn't have happened. That is why one of the 
recommendations I didn't mention, because it was very specific 
to the case, is Johns Hopkins, and you wouldn't know this, but 
Johns Hopkins happens to see the vast majority of physical 
child abuse cases in the city. So, we recommended not a hotline 
extended hours, but 24-hour, 7-day-a-week coverage at Johns 
Hopkins. So, a CPS person could have been there and just been 
called upstairs.
    Mr. CAMP. From what I have seen in press reports, the 
circumstances of the mother coming in indicated no prenatal 
care.
    Dr. BEILENSON. Delivered in a sweat pant.
    Mr. CAMP. I think there were other issues. I appreciate 
your comments on reunification. This clearly was not a 
reunification case. I think the Adoption and Safe Families Act 
(P.L. 105-89) really does give the authority to the judges to 
make the decisions that need to be made, but it is interesting 
to hear that your experience is they are not doing that. So, we 
may have to take a look at that in another issue.
    Secretary McCabe, it seems to me that this whole 
legislative or legal point that the State cannot act on a 
presumption that the same parent will abuse a child later, I 
know other States have different laws. For example, in 
Michigan, a subject can incorporate by reference what has 
happened to one child to other children later. It seems to me 
there should be a legislative change there to correct that. I 
know other States do that, and I am surprised, frankly, that 
Maryland does not have the ability to do that.
    Mr. MCCABE. We will certainly look at that. We want to 
learn from this. I think differential response that the doctor 
talked about points to that, and we will do that, Congressman. 
If I can also, I talked a little about partners in this, and I 
think it is important to also make a point that judges 
ultimately have the discretion and the authority to determine 
what custody is for a particular child. We spend a lot of time, 
our social workers, working with judges. Hence, they, in our 
State, very much believe in reunification, as we do as a 
department. Whenever possible we want to reunify. In fact, we 
are mandated by law to try to reunify to the extent we can. So, 
we will certainly look at that.
    Mr. CAMP. I understand, but I am really looking at the 
point at where files are closed, particularly after one child 
may be removed. If one child has been removed, and then a later 
child is born, there is a fairly high indication there may be 
problems again. I know other States account for that, and the 
evidence in the previous file can come in in a judge's 
determination. The other point I wanted to ask you about is 
when you testified before us in May, you said that the 
Baltimore City DSS had been operating under a Federal consent 
decree since 1989, and the local agency is obligated to make 
systemic improvements in their programs. Obviously, there have 
been problems in the Baltimore welfare system for some time. I 
wondered if you could tell us more about why the consent decree 
was put in place, and what it means today; what improvements 
does it require; and how are these paid for? A little 
background on that, please.
    Mr. MCCABE. Sure. In 1989, the Federal courts established, 
in LJ v. Massinga, which was a class suit by plaintiffs' 
attorneys, that the Baltimore City DSS would be operating under 
this Federal consent decree. Others could probably comment even 
more knowledgeably than I can, but I think it was because there 
were children in foster care that had been lingering there, and 
there did not seem to be any significant improvement in trying 
to find permanency for kids in foster care.
    As a result of that Federal consent decree, we are now 
required to measure our progress in a report every 6 months to 
plaintiffs' attorneys, these are pro bono attorneys who are 
doing this, about progress against several measurable 
standards. I have to admit to you all that I think for many 
years it was a kind of a pro forma exercise, where we 
internally recognized we had to do this report, but we had not 
been committed, as much as I think we should be, to making 
improvements so that someday we could qualify to get out from 
under this Federal consent decree. I have made a commitment 
with the plaintiffs' attorneys to do everything I could to make 
changes so that we could qualify for coming out from underneath 
that. The systemic issues that they reference in that are still 
very much in play, and we are trying to do something about it.
    Mr. CAMP. There have been some comments about the 
technology here, and if there had been better technology. Under 
the Maryland system, even if the technology was perfect, they 
would not have told the hospital that there was a case, because 
it was closed. So, all the technology in the world wouldn't fix 
that. I think you have a legal problem there. I noticed in your 
written testimony you mentioned 1,000 computers had been 
ordered but never delivered. Can you tell me about that and the 
reason for that delay?
    Mr. MCCABE. Sure, Congressman. Well, when I came on board, 
and I think Mr. Blair can confirm this in his shorter time at 
the helm, we recognized that the conditions in which our 
workers operated, particularly our frontline workers, was just 
unacceptable. So, we committed, I committed and the Governor 
committed, to doing everything we could to make sure that those 
tools were available to them. So, now every caseworker, believe 
it or not, has a computer on their desk. We are finally getting 
a phone system that you and I have enjoyed for years. We are 
finally getting our workers those tools, and that is a good 
thing.
    Specifically, I talked about MD CHESSIE, which is our 
SACWIS system. I don't want to oversell the technology. Any 
technology is only as good as it can be if people who are using 
it either understand it or understand the value of it. 
Otherwise, it is just that, it is technology. So, we are very 
much committed to training our workers to use it. The more 
information the better. The MD CHESSIE system, when fully 
implemented, will have all the relevant case information, 
including placement opportunities open, where we can actually 
place a child, at the fingerpoint of the person operating the 
computer. That simply does not exist, and it just compounds the 
difficulty our caseworkers have.
    Mr. CAMP. Thank you, Mr. Chairman.
    Chairman HERGER. The gentleman's time has expired. The 
gentleman from Maryland, Mr. Cardin to inquire.
    Mr. CARDIN. Thank you very much, Mr. Chairman. I want to 
ask a few questions about the Swann case to find out what 
happened, but also to see whether we have made changes in our 
system so that what happened in the Swann case will not happen 
again.
    The first point is you have a young teenager who is a 
runaway from foster care, becomes pregnant. She has a child. 
The child is taken away from this young teenager because of 
abuse and put in foster care. You have a big folder, You said, 
4 or 5 inches thick. Why wasn't she put into foster care or the 
juvenile system, or why wasn't there any services provided to 
her after she had abused her child? You had to take the child 
away, and she is still a foster child herself. We have a 
responsibility. So, why wasn't there any services provided, 
either through foster care or the juvenile justice system, if 
need be, so she is not on her own on the streets? Question 
number one. Have we taken steps to make sure that doesn't 
happen again in another case that might be looming?
    Mr. BLAIR. Congressman Cardin, yes, she was in foster care. 
She was on runaway status, meaning that she had left her foster 
care parent which is provided by the State and the services we 
would be providing for her. She had run away from us, and we 
were making strenuous attempts to find out where she was. We 
did not know she was living in an abandoned building, and we 
did not know she was pregnant.
    Once a case is closed, in a sense, the child is transferred 
to an active foster care case, where he or she will receive the 
supportive services from our agency; so she was receiving 
services. For whatever reason, which I don't know and can't 
comment on now, she ran away from us. She ran away from the 
foster home, and we were trying to find where she was. We had 
no idea she was living in an abandoned building and no idea she 
was pregnant. It was brought to our attention only after this 
case was brought to our attention, sir.
    Mr. CARDIN. My real question said, when she had her first 
child and the first child was taken away, why didn't then more 
intense services, if she had a child while she was in foster 
care, and she abused that child, it seems to me that is a 
signal that intense intervention is necessary, and it is our 
responsibility for intense intervention, and just putting her 
back into a foster care situation that couldn't supervise 
doesn't seem like it is a safe alternative for either Ms. Swann 
or society, and it proved to be that way.
    Mr. MCCABE. Can I comment, just to clarify a little about 
our internal processes? The question the Johns Hopkins worker 
asked our clerical staff, which was, was there an open child 
abuse case or child abuse case, and the answer was no. When an 
investigation occurs, and then an action is taken, we may 
remove a child, within our own system we close the 
investigation. That, however, doesn't mean that there is not an 
active foster care case. So, we are not only providing for the 
child, the well-being in a new foster home, our caseworker, the 
foster worker, also has a dual responsibility to help the 
foster worker.
    Mr. CARDIN. I think I understand that point, but I think 
Dr. Beilenson's point is that this is a real big flag going up, 
and we need to provide intense services. The case should not be 
closed from the point of view of service after you take a child 
away from an abusive parent, particularly if that parent is 
your responsibility under the foster care system.
    Mr. MCCABE. We were continuing to provide services. Now, I 
agree with Dr. Beilenson, the level of service that we can 
provide a caseworker, to both a child who is in care as well as 
the teenage mom, probably they do the best they can with the 
tools they have got.
    Mr. CARDIN. I want to give Dr. Beilenson a chance at that, 
but the second point, and I want to make sure time doesn't run 
out, is that Johns Hopkins evidently had a telephone number to 
call. It is an internal number. I don't know who gave them the 
number to call, and I am not trying to say Johns Hopkins 
shouldn't have done a better job in the case, but it seems to 
me if Johns Hopkins has an internal number to call in the DSS, 
and you are calling from a hospital as far as children being 
sent home with a parent, that number should have connected to a 
person that could have given them the right information. Again, 
I am not trying to place blame here, but have we made the 
corrections now so that if a hospital contacts the DSS they can 
know for sure whether there is an open case with a mother 
before letting that child go home with that mother?
    Mr. BLAIR. The answer is yes, sir. For several years prior 
to me coming on board, this back-door number had existed 
basically based on workers who worked for the department who 
moved on to other employment, such as Johns Hopkins and other 
hospitals, and they utilized this number just to get simple 
information, not to actually report an issue of abuse. So, the 
worker was calling a number that she knew she would get cursory 
information. She did not suspect abuse. That is why she didn't 
call the correct number, which is the CPS hotline. Presently 
that number has been shut down.
    Mr. CARDIN. Mr. Chairman, with your patience, a question to 
Dr. Beilenson. Do you have a comfort level today that we have 
in place in Baltimore information in the delivery rooms of our 
hospitals, particularly Johns Hopkins, which is the largest, 
you said, for potential child abuse cases, so that if the 
hospital in good faith is trying to get information, they can 
get information? Number two, are you confident that if you have 
a foster parent who delivered a child after they had another 
one taken away from them, that there is something in place that 
ensures that the foster child is going to get adequate 
services?
    Dr. BEILENSON. No.
    Mr. CARDIN. Thank you, Mr. Chairman.
    Chairman HERGER. I thank the gentleman. The gentleman from 
Louisiana, Mr. McCrery to inquire.
    Mr. MCCRERY. I have no questions at this time, Mr. 
Chairman.
    Chairman HERGER. The gentleman from Washington, Mr. 
McDermott to inquire. Does the gentleman from Washington have a 
question?
    Mr. MCDERMOTT. Yes, Mr. Chairman. I am interested in 
hearing from the witnesses whether they think the Federal 
Government has any role in this? Do you need Federal standards? 
Do you want Federal standards? Do you want us to stay out and 
just ship the money, or what is your view? We have been having 
hearings on this stuff for the last couple of years. We heard 
about New Jersey, and we have a big report here from the GAO, 
and we get all this stuff, but we never write any legislation. 
So, I am kind of wondering what the point is. Are you here 
asking or think we ought to do something?
    Mr. MCCABE. If I may, Congressman, I served 11 years in the 
Maryland Senate, and when an incident occurs, it, rightfully 
so, creates a lot of visibility and usually action. It should. 
We need to take urgent steps to make a fix, and we are planning 
to do that in Maryland. However, the CFSR demonstrate that we 
just can't make a quick fix in all cases. We have got a real 
long-term systemic weakness in our system in Maryland, as 
usually most other States do. The Federal Government absolutely 
has a role, not just by shipping money to us, and we are very 
grateful for that; we rely on it significantly. Two out of 
every $3 which funds Maryland's DHR comes from the Federal 
Government. So, we absolutely need that partnership.
    A hearing like this, frankly, brings all of us to this 
table and really requires us to listen to each other. That is 
something that doesn't always happen. As Dr. DePanfilis 
mentioned, we all work in our own little tunnels sometimes. I 
spoke with Dr. Beilenson about the three of us meeting next 
week to talk about what the health department does with our 
department and how we can better work together. So, in terms of 
Federal standards and legislation, I think the CFSR is that 
Federal role that you indicated is so important. We have to 
provide a program improvement plan which will incorporate this, 
or we risk a significant penalty.
    Mr. MCDERMOTT. Has any State ever been penalized? Have you 
ever been penalized?
    Mr. MCCABE. We just received ours, and to the best of my 
knowledge that hasn't occurred. Our expectation, and I think 
the expectation of the Federal Government, is we will get a 
plan in 90 days to them that is workable and doable.
    Mr. MCDERMOTT. So, you don't think there is any real 
positive thing that the Congress could do in this? It is 
already in place, and it is really up to you guys at the local 
level? Or you folks, because it is men and women.
    Mr. MCCABE. Congressman McDermott, Congressman Cardin, I 
know the Committee is aware of the Pew Foundation on Foster 
Care, and one of the things we all talked about is the need for 
intensive services before abuse happens. Right now there is an 
incentive really because we get money only after we take a 
child out of care. The recommendations that will be before you 
indicate that States need more flexibility for the moneys they 
receive so they can provide some of those up front services 
that Dr. Beilenson and others have talked about. That is a big, 
long process, and that is in your hands; that flexibility for 
the use of Federal funds would be helpful.
    Mr. MCDERMOTT. Any of the others of you?
    Mr. BLAIR. As a local director, the Secretary is correct. 
We are receiving children who have multiple problems. Their 
lives are shattered long before they encounter a local DSS 
office, across the country, not just in Baltimore. Times have 
changed. Times are more difficult. So, clearly being able to 
utilize funding to create more preventive services to help 
children before they enter the stream.
    We are looking at a local DSS where we basically have a 
safety net out trying to catch as many as we can, but they have 
been abused or neglected long before they encounter our agency. 
So, any assistance from the Federal Government that would allow 
the State, which means local DSS, to create sort of these out-
of-the-box type of collaboratives with the health department 
and others, and education and housing and all these other 
things that are important to the children before they come in 
contact with DSS, would be most appreciative, sir.
    Dr. BEILENSON. I will just be blunt. I think that by far 
the most important thing you are doing is holding these 
oversight hearings, because, with all due respect to the 
Secretary, who is a very decent, caring guy, who really does 
care about these issues, what has happened in the past when a 
bad case occurs, at least in Baltimore, is press, all these 
guys from Baltimore, cover it for 2 or 3 days; DSS hunkers 
down, waits for the wave to crash over their heads, public 
outcry to die down, and nothing ever really changes.
    We made these recommendations to the Secretary and the head 
of DSS back in January. As Congressman Cardin knows, being the 
former Speaker of the House of Delegates, it was done to get 
there before the legislative session in case legislation had to 
change. I don't think Federal legislation is necessary, with 
one exception: confidentiality. I can't ever get from our own 
people whether it is State law or Federal law that affects 
releasing information, but I really believe in transparent 
government. This is part of transparent government. Too many 
times people fall back on, we can't release the details of this 
case. Even fatal cases. I don't understand the confidentiality 
of fatal cases actually. I have never understood that. We 
cannot discuss them.
    There is no way you are going to solve problems or change 
the system unless confidentiality, and I am all for 
confidentiality. I don't want my medical records divulged, but 
that is not what we are really talking about here. This is to 
protect kids, and you keep falling back on confidentiality. So, 
if there is any one issue that the Federal Government, and I 
don't know specifically where the confidentiality issue lays, 
Federal or State. That might be something you can be involved 
in. This oversight is making a difference because these 
recommendations are getting a lot of coverage now.
    Dr. DEPANFILIS. I would like to offer a possible alternate, 
but somewhat complementary, view, and that has to do with the 
way that our Federal and State systems are designed to respond 
after the fact. So, the guidance that the CAPTA sets up, which 
sets the standards for child abuse and neglect reporting laws 
at the State level, has a very narrow definition of child abuse 
and neglect. It is only when those omissions or acts create 
harm for children, or a serious risk of imminent harm for 
children, are our current systems able to respond. That, in 
combination with the funding issues, where much more support is 
provided after the fact, when there is a need to remove 
children, which comes out of Title IV-E funding, we end up with 
this pattern of spending all our resources to serve the same 
families at the high end, at the deep end, this revolving door.
    So, I think we really need to look in this country at a 
total new system and quit taking the easy road, with these 
small solutions, and really look much more deeply. Maybe the 
whole thinking was faulty to begin with, to think you could 
take a legalistic response to such a complex problem. We know 
that prevention works in many other fields of practice, if you 
look at medicine and others. We need to look at prevention with 
respect to child abuse and neglect.
    Mr. MCDERMOTT. It seems to me, Mr. Chairman, and I realize 
my time is up, but I think we spend $700 million on prevention 
and about $7 billion on treating the results of the problem. 
That seems like that is somewhat of an imbalance, and maybe it 
is something we really ought to look at in terms of what we do 
with our money. I think it is a suggestion that this 
Subcommittee could have an impact on.
    Chairman HERGER. The time has expired, and I have been very 
generous with the time, because certainly this issue is 
critically important to the young people, to the children of 
this Nation. I again mention that the purpose for this hearing 
is to bring to light the challenges, the problems that we have 
out there. This Subcommittee is looking at coming forward with 
legislation. We have just had recently the Pew Foundation study 
that has come out. I am working with Ranking Member Cardin, 
along with Mrs. Johnson, Mr. Camp and others, to come up with 
legislation where, hopefully, we will be going out of our way 
to address these problems that we are seeing coming forth that 
are, again, not just unique to Baltimore or Maryland, but we 
see tragically all too often taking place in our other 49 
States as well. Mr. McCabe, if I could ask you, who, if anyone, 
is responsible for determining whether a new mother, especially 
a teenaged mother, is fit to take a child home from the 
hospital?
    Mr. MCCABE. Ultimately, the way our process works. Oh, 
excuse me, in terms of who makes that determination whether a 
child should be released after birth in a hospital?
    Chairman HERGER. Yes, and do the hospitals release 
newborns, for example, to mothers who live on the streets; to 
mothers who live in homeless shelters? Maybe Director Blair, or 
anyone else.
    Mr. MCCABE. This is where Dr. Beilenson is saying everybody 
has to work together to determine what makes a rightful plan. 
Ultimately, judges in Maryland, in our juvenile system, have a 
role where we make recommendations to them on the disposition 
of children. So, if there were someone clearly at risk and 
there was history of it, I think that we do have a role to 
advise and recommend what the proper disposition is. As this 
case illustrates, in real time, two children were born in a 
hospital setting and calls were made. My view is that the right 
additional questions were not asked and that all parties had 
some role in failure here.
    Chairman HERGER. Anyone else have a comment?
    Dr. DEPANFILIS. Basically, I think what you are talking 
about is, a child is born, there is an assessment of the 
capacity of that parent to provide adequately for that child 
when the child leaves the hospital with the parent. If that 
person, that team in the hospital, has reason to believe that 
the child will be maltreated, according to the definition in 
State law, they may make a report of child abuse and neglect. 
In this case, it would be a risk of child abuse and neglect.
    So, it depends how convincing of an argument that person 
making the call can make to suggest that the conditions that 
they are aware of would create a significant risk of serious 
imminent harm when that child leaves the hospital. So, if the 
parent has been noncommunicative about the information, about 
their plan, if there is a history of substance abuse, if there 
is enough, if there is a good enough assessment done at the 
hospital, then you should be able to make a convincing case, 
such as in this case. It doesn't sound like that happened. So, 
it doesn't sound like the call was actually made to report the 
suspicion of child abuse and neglect, and that is why it fell, 
in this case, through the cracks.
    Mr. CARDIN. Would you yield, just so I can clarify that? If 
the assessment is made that there is a risk here, the call is 
made to the DSS; the child, the baby, would normally be 
released within a very short period of time, 2 days. So, you 
are saying that the DSS would be contacted by the hospital, and 
then DSS would then come out and make an on-the-spot 
investigation? That would be the normal process that would be 
used?
    Mr. BLAIR. Yes, sir. As a Director, I have done that with 
my workers. I have gone to CPS and taken a call, and we 
followed through on an investigation, myself as Director, just 
to see what the process is myself, so you make decisions. You 
are making it in real time, and that is exactly what happens.
    Mr. CARDIN. So, it is your agency's judgment, and you said 
there were 100 cases that you act on, on abuse, a month in 
Baltimore City?
    Mr. BLAIR. Correct.
    Mr. CARDIN. How many of these are made in this type of 
circumstance at the hospital?
    Mr. BLAIR. That number I can't say. I can only say that, 
over the year of 2003, we had over 13,000 phone calls of people 
making allegations of abuse in 2003. I don't know how many came 
exactly from the hospital, but I can get that information to 
you, sir.
    Mr. CARDIN. Thank you.
    Chairman HERGER. Thank you. The gentleman from California, 
Mr. Stark, to inquire.
    Mr. STARK. Thank you, Mr. Chairman. I am just trying to see 
if I can focus here, Mr. Blair, on how the system works in 
Baltimore City. You have a ratio of 17.5, I see here, of 
caseloads per worker. Now, is that just for this chart I am 
looking at, is child protective foster care, adoptions and 
whatever SFC is? Is that the 17.5, or is this caseload for all 
families who would come to the attention of your department?
    Mr. BLAIR. I believe that is our foster care ratio.
    Mr. STARK. That is just foster care.
    Mr. BLAIR. I believe that is what that is.
    Mr. STARK. You have a Family Preservation Program?
    Mr. BLAIR. Yes, sir, we do.
    Mr. STARK. Give me an idea, if I were to suggest to you 
that if all Temporary Assistance for Needy Families (TANF) 
beneficiaries that had children, what would be, what would you 
guess the caseload to social workers would be? If you lumped 
all of these, all of your clients together, what are you 
operating on in your department in terms of caseload? Make a 
guess.
    Mr. MCCABE. We have approximately a little over 70,000 
temporary cash-assistance customers in Baltimore City, excuse 
me, Statewide, and of that, a number of them single only, the 
child is a temporary cash assistance client. I don't have that, 
those numbers.
    Mr. STARK. Hundreds?
    Mr. MCCABE. I am not sure if I understand the question.
    Mr. STARK. Well, how many? All of these people have to be 
supervised somewhere or another, minimally, if they are not in 
any immediate danger, but they have to be assigned to a 
professional, I would presume, a caseworker. I am trying to get 
your caseload here, as you say, for foster care and other 
services is about 17.5 cases to the social worker. I am trying 
to get, if you take all of your TANF clients and others in your 
DSS program, what is the overall caseload?
    Mr. BLAIR. The persons on TANF are receiving temporary 
assistance, temporary aid. So, most of them, more than likely 
some of them have active foster care cases. So, what happens?
    Mr. STARK. They do not come under Family Preservation?
    Mr. MCCABE. No. What they do, we have within our system in 
Baltimore City, as across the State, we have separate 
eligibility workers who work with those clients. They are 
different and distinct from the people who provide these social 
services to child welfare.
    Mr. STARK. Is there, do they interface a lot?
    Mr. MCCABE. They should interface a lot better. We have 
information.
    Mr. STARK. The idea of Family Preservation is that there is 
housing and food and poverty and transportation and child 
abuse, and foster care gets to be a very small number, but my 
suspicion is that not, it happens in Alameda County, 
California, is that you are closer to individuals supervising a 
hundred cases. That means you get to look at somebody in their 
surroundings to see whether there is a house or whether there 
is assistance and parenting needed once every 3 months as 
opposed to more often. I am just trying to get, in terms of the 
resources that we might offer, I am just trying to see how 
pressed you are for additional resources.
    Mr. BLAIR. As a local DSS director, we always welcome any 
type of resources.
    Mr. STARK. What do you pay a starting caseworker in the 
child protective? What does a child protective caseworker get 
as a starting salary? After they graduate from Dr. DePanfili's 
program, what do you pay them?
    Dr. DEPANFILIS. First of all, I need to say that most 
workers in Maryland are not social workers. They have other 
training.
    Mr. STARK. Good training?
    Dr. DEPANFILIS. They have other education.
    Mr. STARK. Is there a training standard?
    Dr. DEPANFILIS. I really don't know. I know that there is a 
training certification that occurs for all. If they have 
graduated with their masters in social work, they start at 
around $33,000.
    Mr. STARK. If they teach in the public school and teach in 
third grade, what do they start with?
    Mr. MCCABE. I would suspect higher than that in Baltimore 
City, without a masters degree.
    Mr. STARK. I guess what I am concerned about is that, this 
is a concern that I have across the country, that we have 
awfully minimal standards for people who are charged with 
observing families who probably don't rise to the level of 
incipient abuse, but if they are not trained, they are not 
going to spot it. They are trained to add up the numbers and 
say, ``You don't qualify for food stamps any more.'' It is not 
that that isn't a job that needs to be done, but if we cannot 
somehow raise the professional level of your undergraduates and 
if Mr. Blair can't demand a bachelors degree or some intern 
training of a couple of months rather than a 10-hour 
indoctrination course, I think we just miss a lot of cases. 
That, I am just concerned that we are not doing that. I don't 
know how, I know you are limited in the resources you have. I 
think that is something, Mr. Chairman, that we could do more as 
we do these programs and not only just by the money we provide, 
for instance, in TANF for the training, but we are impacting 
these communities who have to put into operation the plans that 
we create. I don't know how we get more generous, but I think 
we have to be. Thank you.
    Chairman HERGER. I thank the gentleman from California. Dr. 
DePanfilis, could you identify for us some of the factors known 
to increase the risk of child neglect? Are child welfare 
systems in the United States currently designed to identify 
those factors and respond with assistance?
    Dr. DEPANFILIS. Yes. First of all, let me say that each 
case, each family situation is different. The things that have 
been shown in research to increase the likelihood that the 
basic needs of children are not met, which is one broad 
definition of neglect, substance abuse, domestic violence, 
mental health problems of the parents, I would say would be the 
primary ones. Then you have social isolation, having no one to 
turn to, lots of stress, high relationship between poverty and 
meeting the basic needs of your children, but it doesn't mean, 
most poor people don't support their families. In spite of 
that, they can still adequately care for their children. So, 
poverty alone usually does not result in neglect. Poverty puts 
you in neighborhoods where you have poor housing, where you 
have poor educational opportunities, lots of high rates of 
crime and other violence, which then makes the neighborhoods 
unsafe.
    So, I would say those are the core factors that relate to 
neglect specifically, and neglect is the primary reason that 
most families are referred to the child welfare system, and 
those in my own research on the recurrence of child abuse and 
neglect. Neglect circumstances are the most likely to come back 
over and over and over again because we failed to respond 
effectively the first time we become aware of a family who is 
under stress and is having challenges to meet the basic needs 
of their children.
    Chairman HERGER. Are there any Federal policies that you 
feel that we might come up with that might more actively 
encourage States to target these families with these factors to 
prevent abuse from happening?
    Dr. DEPANFILIS. Well, I think the whole emphasis, both 
within the CAPTA and also the way we allocate our resources 
under Title IV-E all put an emphasis on after the fact. I 
think, especially in cases around neglect, this isn't like a 
one-time thing usually. It is not like an event occurs today 
and that is it. It is this chronology of omissions in care that 
sort of mount up and, in the life of a child, mean a great deal 
to their opportunities or lack of opportunities to succeed in 
any part of their life. So, I think we really need to go 
backward, I think, and look at, where are we going to put the 
minimal resources we have? I think we should change that ratio.
    Chairman HERGER. Well, I would like to thank you. I would 
like to thank each member of our panel.
    Mr. CARDIN. Could I make one quick comment? Appreciate 
that. Just one quick comment. First, I want to first point out, 
I think the suggestion that you are now talking more among 
yourselves is very helpful. If these hearings help facilitate 
that then that, in and of itself, is important. I am glad to 
see that you are all trying to get as much expertise as 
possible to deal with this issue. I just would be bold enough 
to make just two suggestions that I think have come out of this 
hearing. One, it seems to me that, I understand Baltimore City 
has approximately 500 confirmed cases of abuse or neglect a 
month, of which, 100 results in the child actually being taken 
out of the family, from the information that I got from 
Secretary McCabe.
    That is a tough assignment. I understand that. I would just 
suggest that, number one, in the hospital itself we could be 
doing a better job with children who are born there. I think, I 
know Dr. Beilenson has made some recommendations here, but it 
seems to me that we should be able to assist the hospital in 
carrying out its very tough responsibility, to get DSS involved 
before a child is allowed to come home. It seems to me we 
should have better guidelines to help the hospital get the 
information from DSS or report the information to DSS in order 
to make the appropriate evaluation.
    The second point I would suggest is that, when we have a 
child in foster care who is a very tough assignment, such as 
Ms. Swann, we should have some type of way of putting a high 
priority to provide services to that individual. Again, it may 
not be appropriate within foster care. We might have to go 
beyond foster care. We should be able to put a high priority on 
that type of a case. We should be able to identify that. Once 
again, Mr. Chairman, I want to thank you very much for 
permitting this hearing so that we could try to understand what 
happened in Baltimore and use that not only to help people in 
our jurisdiction but to use it as a way to try to get national 
involvement to try to help our children.
    Mr. MCDERMOTT. Can I ask another question of them?
    Chairman HERGER. Very briefly.
    Mr. MCDERMOTT. My question is this: if neglect of children 
is the major reason that you pick kids up, to what extent are, 
or are you yet seeing any impact? Or do you anticipate impact 
from the lessening of the availability of Section 8 vouchers 
and, therefore, the loss of housing, so that people start 
living in their cars and that kind of thing?
    Dr. DEPANFILIS. I think, in Baltimore in particular, I 
think we are all sort of nodding our head. The housing, both 
the quality of housing and the quality of housing at an 
affordable price, high content of lead in the poor housing, 
high density of people within four walls, all of those things 
are major issues and have a big impact on how adequately 
parents can care for their children.
    Mr. MCDERMOTT. Thank you.
    Chairman HERGER. Again, I want to thank each of our panel 
members for appearing before us on this very difficult issue to 
discuss this tragic case. I look forward to continuing to work 
with all of you to ensure that States are doing all that is 
necessary to protect children from abuse and neglect. With 
that, the hearing stands adjourned.
    [Whereupon, at 5:15 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]
         Statement of Theresa S. Cook, Santa Clara, California
    I am a Mother who has lost a son to the Department of Children and 
Family Services not only because of a ``system that is broken'' but 
because ``the system is corrupt''. There are NO changes possible for 
Children in the System until you remove the problems from which they 
are rooted. The root to all and mainly to this evil is the people who 
currently run the programs. The Best Interest has somehow gotten lost 
and greed has taken over. These people are given bonuses for every 
adoption, tax deductions, awards, not to mention what is paid under the 
table and much more. One who denies any of this to be truth is not only 
lying to themselves but disgustingly; they also lie to the children. I 
know first hand because my son was lied to and I was lied about. The 
record is set up against me and it's all-fraudulent. Time and time 
again, I continue to present my case to committees just like this one 
and time and time again I am ignored. I have the evidence to prove the 
lies yet; no one wants to take the time to see them. I am just one 
voice in a crowd of many who keep screaming out for help and are not 
being heard. Change is on the horizon, we have heard this for many 
years now and nothing has changed. Only the order of the words seems 
different. Before you make change, you must fix the problem. Get the 
criminals out of their positions, appoint ``watchdog'' citizen panels 
to review the cases, RETURN the children and as you witness the 
reunions, the looks of the parents who will never get their child home 
because of death, the scars so many have suffered from and the sigh of 
relief at a mother who holds her child after thinking she would never 
ever see him again, take those moments into consideration when deciding 
what changes you have to make. The answers are there as they have been 
all along. Any one of you who can't look at the number of children 
being removed, the number of children not being returned should have 
some concern why those numbers are so high. KEEPING FAMILIES TOGETHER 
IS SUPPOSED TO BE THE GOAL HERE. Why then are so many children not 
going home? How many more children will it take to slip through the 
cracks before you realize the truth? This is Tragedy that could be so 
easily prevented if that were the true intensions at stake.

Comments on Testimony

    Having had experience with the System and becoming an Advocate for 
other parents who are suffering as I am without my child, I would like 
to comment on the testimonies taken on June 17, 2004.

A. To The Honorable Wally Herger;

    1. You stated that the purpose of this hearing was to understand 
what happened in the Baltimore case so it could prevent it from 
happening again.
    Your Honor, when will it be a reality to all of you that sitting 
down to talk about it will not solve the problem? You ``explored'' the 
case of the starving children in NJ; you have reviewed federal and 
state oversight measures, and even heard about each and every state 
FAILING the Federal Reviews. This is not the first year they have 
failed; this is one of many years it failed. And every year new changes 
are going to be made and every year, more children are taken and every 
year more children die and every year, this committee sits down to talk 
about it. The tragedy of a family being torn apart for ever, the death 
of a child who's left in a strangers home to die alone, the bruises and 
the scars other children have and are suffering from tonight and the 
silent cries of children for their mothers and the mothers for their 
children whisper in the wind each night as the world lays down to 
sleep. Children are being physically dragged from their families, 
beaten, molested, killed all the while they are lied to and drugged and 
moved from place to place. They lose their identities, their rights and 
the very core of who they really are.
    Stopping the tragedies takes more then sitting down, it takes 
action and it takes immediate action in order to attempt to prevent the 
next from happening. True, no policy is perfect but it's the people who 
have the power to implement them that are to blame here. They take the 
polices and manipulate them to their own benefit and that's where 
change must occur.

B. Floyd Blair;

    2. Ask any family who has been involved with the system if the 
Department addressed the families' difficult issues in any other way 
but to use them against them in court? Limited resources are not the 
issue. The resources exist and many of them good ones. The problem is 
with the Social Worker who is under pressure of a Director who looking 
to make brownie points with members of the Board of Supervisors or 
someone else in position. Most social workers don't care what the 
families issues are, they are just out to get the child put somewhere 
and the last place they consider is to return them home. You will see 
in my own personal story how well the Social Worker helped my family. 
Social Workers do give 150% and that's in making sure the child never 
returns home.
    Heart wrenching is when a parent busts their rear end to get their 
child back and a social worker recommends termination of rights because 
of lies. Heart wrenching is having a 6-year-old boy tell his mom that 
he will promise to come home when he gets big and to not move so he can 
find her. Heart wrenching is when the birthdays, Xmas, Mother's Day, 
Father's Day etc. roll on by each year and there's an empty void 
because someone very special is missing.
    The statistics will show, if taken honestly and they aren't, that 
most of the children who die in the homes of their parents are children 
who have been abused for years or most of their lives. They are 
``damaged'' in the eyes of the Department and would be harder to place 
if they were to be removed. So, they are left behind. During a 
termination of rights hearing, features, ``adorable-adoptable'', always 
describe the child. Children are described at the Reunification trials 
as to having severe mental health issues that will only be aggravated 
more if returned home but shortly after while in the.26 hearing, this 
mental health issue will diminish and the child is deemed adoptable.
    We have proof in the county where I live in that paperwork is 
changed and altered by Officials. They even get to keep tier job when 
the paperwork is exposed. Money embezzled from someone amounts to jail 
time for a ``citizen'' yet, if a county or state employs you, you are 
not even held accountable. That is what happens in Santa Clara County 
and I'm sure it happens elsewhere too.

C. To Peter Beilenson;

    3. Your recommendations are logical and unfortunately have 
``suppose ably'' already been implemented but still they hold too many 
gaps. What about foster parents who adopt or take in several children, 
like the NJ case? What about the unlicensed social worker? Many of them 
are. What about the social workers having to produce evidence to prove 
their statements not just allow hearsay to be admitted. What about a 
Judge who gives the perpetrator of domestic violence custody even 
though classes was never completed? What about the social workers 
accountability for NOT following the mandates as they are written.
    You spoke about the three major causes of childhood deaths; SIDS 
(adults co-sleeping with infants mentioned), Juvenile shootings and a) 
CPS having removed a child and returned it only to be killed by the 
parents b) one child removed and another killed later. Be realistic 
with your studies. California has the largest amount of children taken 
into custody by CPS. Experts here say that out of the 75,000 children 
taken up to 50% could have been left home. DCFS comes into contact with 
nearly 180,000 children each year. That's five-fold and its doubled in 
the nation. More then 660 children have died since 1991 and more then 
160 were homicide victims. Go onto the website ``Forgotten Children'' 
you'll see the horror these children are suffering in the hands of CPS. 
There are many, too many other websites filled with these inexcusable 
and preventive deaths.
    There have been numerous lawsuits settled that involve CPS. 
Hundreds of parents are stepping forward and begging for help from our 
Government to get their children back because of the injustices CPS is 
inflicting upon us all. Yet, you refuse to hear the truths and continue 
to point fingers at the parents. That is just the easy way out of a 
very bad situation in which it appears that each and everyone of you A) 
Just don't care B) profit from it in one way or another or C) are just 
too naive to understand about it.
    It is frustrating to try and understand why you would state that 
you are disappointed in the vague responses to your recommendations to 
the State's Secretary for Human Resources and the Director of 
Baltimore's DCFS. Doesn't that non-willingness of participation ring a 
bell for you? What will it take to get you to see why you are not 
getting prompt responses? And what do you intend on doing about the 
lack of concern on their part?
    Before making any future recommendations, I would suggest looking 
at the reality of what is happening here and while you face it deal 
with it accordingly. For instance, December 2, 3003, President Bush 
signed the so-called ``Adoption Promotion Act''. This signature 
expanded an existing adoption bounty program. The bounty encourages 
states to tear children from their families-especially easy-to-adopt 
infants. Even if the adoptive parents decide to give children back, 
states keep their bounties and toss them into slipshod placements which 
are even more likely to fail. Fewer foster parents are willing to adopt 
then promised yet, termination of rights has increased. Between 1997-
2001, 92,000 parental rights were terminated. A generation of ``legal 
orphans''. In 2002, 3000,000 were taken from their parents with 
termination of rights taken. I know, my child was one of those 
children. Children are trapped in foster care each and everyday and the 
end results are needless.

D. To The Honorable Christopher J. McCabe,

    The only comment needed here is that it is very strange how your 
explanation of the Departments situation and plans just so happens to 
be the same as every other Social Services Department in the country's 
explanation. I am beginning to believe that is something one would 
learn in a Social Services 101 Class.

E. To Diane DePanfilis,

    ``Family Connection'' is also a program that was implemented here 
in Santa Clara County. Problem is the program hasn't benefited any 
parent or child that I know of. The County Officials have once again 
formed another committee to ``aid families'' and no results have taken 
place. I can say that it is more likely then not that the Federal 
Funding was received and probably spent elsewhere as Federal money is 
easily obtainable resulting in very little progression for the safety 
of the children. Has anyone thought to recommend that any Federal money 
given should be only spent on those that produce positive results? 
Positive results meaning families stay together and family issues 
resolved. Positive results meaning fewer children removed and fewer 
children abused and killed. Positive results are having a truly abused 
child's life saved. One who's importance would normally slip through 
the cracks because the focus is on taking a child whose parent is 
willing to make changes and whose willing to do whatever it takes to 
get their child home to them.
    We already have the ``Working together across systems'' going on 
here in Santa Clara County. It consists of a team of *A Superior Court 
Judge and/or Commissioner, *CountyCounsel, *A Social Worker, *A 
District Attorney, * Juvenile Dependency Attorney, *A therapist and *a 
psychologist. As a team, they all work together to promote the negative 
issues of the family over a limited period of time thus resulting in 
the termination of parental rights for adoption of the child.
    These ``known professionals'' need only the ``evidence of hearsay'' 
to establish their case against the parents. The parents are greatly 
involved in each and every case as this team demands completion of the 
case plan. Parents are told after complete ion that it wasn't good 
enough or that they didn't learn enough or that time had run out. Might 
I add that a greater number of these ``so-called professionals'' are 
not even licensed. The ones that are were only required to take 
training courses which ran 4 to 6 hours each.

                             IN RE: JOHN C.

    March 13, 2000, my son John, three years old at the time was taken 
into custody after a 911 call. I had argued with my two older boys 
about a relapse I had. Having been in treatment and diagnosis with Bi-
Polar Disorder, I was suddenly caught in the middle of a nasty divorce, 
insurance cut off and no medication. The only thing I knew was to self-
medicate. I was not happy with that decision and to prove to the kids I 
didn't want to continue using, I dialed 911. Thinking I would end up at 
the county hospital, I soon realized I was headed to jail and John to 
the Shelter. Previously, four other children had been removed and I had 
never been offered any kind of treatment plan. Two other children went 
to live with their Dad but the Courts recommended I do drug treatment 
at my own expense and I had no income at the time. My two children were 
taken by their Dad out of state where he has held them away from me for 
over 11 years now.
    I was told by the first Social Worker that if I completed my case 
plan, my son would be returned home. I was put into intensive 
programming dealing with ``dual Diagnosis'' and I successfully 
completed each and every class I went to. I obtained employment and 
worked with other addicts, built a strong support group and continue to 
maintain my sobriety and contacts with my sponsor who is my best 
friend. I complied with everything. I struggled with dealing with my 
ex-husband and his family who did everything to keep me from regaining 
custody. There were phone calls made to the social worker several 
times, which were made out of complete vindictiveness. The social 
worker (SW # 4) admitted to never investigating these allegations. She 
merely wrote reports to the Judge and submitted the allegations as 
facts. She lied and manipulated my son away from me over a period of 
2\1/2\ years. I was accused of telling my son to lie--accused of having 
``diluted'' tests'', burning my son with a cigarette intentionally 
amongst other things. A social worker from the DA's office put the 
icing on the cake with the cigarette burn. One burn which he had no 
doctors report on, no visits were stopped and my son was not removed at 
the time he says he saw the burn. Amazingly, on the witness stand this 
``so-called expert'' admitted to seeing a burn and then he stated he 
never saw it. Out of five Judges who sat on my case, one described me 
as being a MBPS Mom. Despite numerous letters from my doctor, the Court 
and the social worker made their own diagnosis and said that the people 
that were with me on a daily basis (who never witnessed any of the 
allegations I have described) were incredible. My rights were 
terminated on September 20, 2002. It had been 6 months that I had seen 
my son as they had terminated my visitation in May 2002.
    My son and I were very closely bonded. He was the sparkle of my eye 
and I was a very good mother to him. I never let him down until the 
Department stepped into our lives. Once involved, they made sure I 
failed my son in every way and told him I was the cause of the failure. 
He would beg for me to let him stay at my house. He cried when I had to 
take him back to his Aunt's house and told me I didn't' love him. This 
result after a perfect weekend we had spent doing things together and 
with other family members. The system literally tore my son and I apart 
with their lies. I have proof to each and every lie they told and I 
have shown several entities, including this committee the documents, 
yet I am unheard and my son is to this day, somewhere out there. I have 
no idea if he is even alive. If he is being abused, if he is happy, 
sad, has a home, a bed . . . I have no idea and the unknowing is pure 
torture.
    Your system and the people who run it should be abolished. You 
people have got to do the right thing and bring our children home. I 
don't mean to round table discuss this matter but to put it into action 
immediately. ``Let our children go.'' Where have you heard those words 
before? Each and every day, each and every hour, each and every minute 
that goes by with no immediate action taken on your part is a crime and 
a lack of concern to humanity on your part. Too many children are being 
taken, why can't you understand that there is a serious violation being 
committed against the families of America and even other nations if 
that were to be sized properly. What is happening is not just a matter 
of a case or two. It's a matter of millions of cases and it's a greater 
chance that if this keeps going many, many more children will go 
unprotected as the billion-dollar industry of stealing and selling 
children is kept alive.
    There are many parents like myself who realized their mistakes and 
sought help. This has to amount for something other then the loss of 
our children. In today's society, drug addicts are frowned upon and 
treated as if they can never make changes. Investigations are done and 
the results are ``Looking into the family history and the social 
workers notes''. We obliviously all know that cycles of family history 
can be broken and that the programs work for those who want to work 
them. If it is true that drug addicts can not change then why are so 
many federal tax dollars being ``wasted'' on the programs? The truth is 
that the programs are working and the results are showing. So, the 
question now shifts to the Juvenile Dependency system. Unlicensed 
social workers are being allowed to opionate to a judge without even 
following state mandates. There is no room to err on the part of a 
parent but the social workers are not obligated to accountability on 
anything they do. The sickest part of the whole situation is that they 
know it and they will take advantage of it.
    The social worker in my case told me exactly what the Judge was 
going to rule on 6 months before the trial and she had already informed 
my son that he was never going to see his mom again. Another social 
worker told my son that he was going to be getting ``proper parents''. 
This is a child who was never abused, who was close to both parents 
even though my ex and I did not get along, we both were bonded to our 
son. This child was the focus and center of attention at all times and 
no matter what, his needs always came first. Yet, the social worker 
told me I was an ``unfit mother.'' When I got upset over that remark, 
she informed the Judge that I was ``maniaced and spinning out of 
control''.
    When the opinion of the Sixth District Court Appeals came out, I 
was appalled. The facts of the case were incorrect. They didn't even 
mention testimony and documented proof that those facts were proven 
wrong during the termination of rights trial, instead they focused on a 
previous trial. Termination of Reunification was a complete sham. 
Represented by a ``public defender'', my rights were certainly not 
protected in the course of the trial. They brought in statements that 
were not true and my attorney did nothing to protect my interest. She 
even told me after the trial that there was no reason to appeal because 
I had nothing to appeal about. I found out months later that the entire 
contents of the trial was appeal able and had I appealed I probably 
would have had my son returned to me today. The Justices sure made 
comment to the fact that I did not appeal the trial, but never 
mentioned as to why that occurred.
    I want my son back and I want him back now. I have patiently waited 
for two years now for people like this committee to take action and do 
what needs to be done. In LA County, they are returning children as 
they have admitted the wrong of the department. Here in my county, the 
Board of Supervisors continues to shuffle the blame. Over the past two 
years or so, the County has been exposed in the following:

    1.  Juvenile Hall Officials were busted for physically abusing the 
kids in custody. ``Counselors'', better known as Police Officers were 
using excessive force on these kids resulting in bruises and broken 
bones. In CYA, they had cages they put the kids into. This abuse has 
been reported for years and has been ignored until recently. Many cases 
of abuse could have bee prevented had the voices been heard. To date, 
nothing has been mentioned about the reprimand of the officers. Child 
abuse is a crime and a felony at that. I wonder why it's not being 
imposed in these cases?
    2.  The Children's Shelter investigation results were horrifying. 
Especially since my son spent a considerable amount of time there 
during the reporting period. He was 3 and 5, having been placed back 
into the system by my ex-sister in law after my visits were terminated. 
She didn't raise her own son due to mental illness and had no 
intensions of raising mine. Her goal was to show me that she had the 
power as she put it, to stop me from getting my son back. She proved it 
all right at my son's expense. She and the ex brother in law are now 
divorced and she has moved out of the state. The investigation of the 
shelter produced many abuses. Children were restrained and locked into 
a closet like room until they calmed down. We have discovered that the 
children are rugged. Thorizione and Adavent are given to little 
children to keep them calm and zombie like. Drugs and prostitution were 
exposed. Molestations. The Feds told the County that no child under the 
age of 6 is to be left at the shelter overnight. Only for the amount of 
processing time. It was discovered that this was not honored and that 
several children remained there for several days under the age of five. 
One six-year-old girl was molested by a thirteen yr old boy. This was 
exposed with the next that occurred in this county.
    3.  Following the Shelter report, a Civil Grand Jury began 
investigating our complaints against the Department of Social Services. 
They spoke to the Ombudsman's office. What they discovered soon made 
local news as the Director of that office was making 200, 0000.00 from 
the county for services and she spent the majority of her time in Costa 
Rica. She fired the two whistleblowers that exposed more of the 
evidence and documents against the Department's Director and the 
Children's Shelter. The Director-altered documents which detailed the 
molestation of the little girl. Altered documents were also submitted 
to the Board and there were other documents submitted altered. Thus, 
the final reports were not true. Turns out the Chairman of the Children 
and Family Service Committee knew about the Ombudsman's Office and so 
did the Director. A going quay party was thrown for her when she first 
left. Those that attended were people in position in the County. End 
results of that scene were that the County fired the Director of the 
Ombudsman's Office and denied knowing anything more about it. The 
Director who altered documents still continues in her position and the 
Board members are acting as if it never happened and that what happened 
was innocent and done for good cause and our DA is turning his head the 
other way. The local NAACP Office who opened the can of worms by 
allowing the parents to hold an open forum with County Welfare 
Officials present has announced that no civil rights were violated, 
(The Civil Grand Jury is supposed to file a report stating that there 
has been violations) and he has reneged on each and every promise made 
to the parents who spoke at that forum. Inside scoop is that the 
Chairman of the Committee has told the NAACP to ``get the parents off 
his back''.

    Having spoken to an FBI agent in our County about the corruption, 
she stated that they knew that there was a lot of money here being 
passed but that they didn't know how it was ``going from hand to 
pocket''. She asked me if I knew anything and although I have been 
privy to some things, I told her no. That was because she told me that 
even if I had all the facts about the money, it would not change the 
status of my case as what they are doing is ``legalized kidnapping''. I 
would have to prove fraud.
    In Black Law's Dictionary, F-R-A-U-D is defined over several pages 
starting with this; ``An intentional perversion of truth for the 
purpose of inducing another in reliance upon to part with something 
valuable thing belonging to him or to surrender legal right. A false 
representation of a matter of fact, whether by words or by conduct by 
false or misleading allegations, or by concealment of that which should 
have been disclosed, which deceives and is intended to deceive another 
so that he shall act upon it to his legal injury/ Anything calculated 
to deceive, whether by a single act or combination, or by suppression 
of truth. Or suggestion of what is false, whether it be by direct 
falsehood, by innuendo, by speech or silence, word of mouth, or look or 
gesture.''
    Fraud is what has happened in my case and in several millions of 
cases all across the USA. California is the worst. I do believe that 
this problem can be fixed if it's truly the intent of your discussions. 
If you are truly concerned about the safety of these children then you 
MUST take immediate action. Return my son and other children who have 
the right to be where they belong. Stop the overflow of the foster care 
and you will then have enough fostering places for those children who 
clearly do need the help like the twins that brought you all together.
    For too many years, the system has been on the ``hot seat'' and 
vowing to make changes for the ``Best Interest'' of the children. The 
results prove that the System is failing our children. Time has come to 
look into other solutions. Such as doing the right ways by returning 
children, removing those who are being paid to do nothing but make more 
excuses every time another child dies, let the people work for the 
system and the system for them. You can figure the rest out. After all, 
that's your job.
    My space is limited and trying to submit my evidence in 10 pages is 
impossible. I truly believe that the System knows that you people will 
not look into lengthy exhibits and that's why they drag the situation 
out. Think about it. We are dealing with a highly intelligent group of 
people who like living in the high life and will do it at the expense 
of a child. The proof is there. The question is ``How many more 
children is your Committee willing to let die before you decide to take 
action?'' Tell the children yourself, how many of them will NOT be with 
their parents. Face the end result of the child who has been raised by 
the system and yet cannot get a grip on life and how to deal with it. 
There are too many wrongs here and no rights. Make the way clear.
    I am available for further information if you need it. Thanks for 
your time and patience. Have a good day.

                                 <F-dash>
                Statement of Fight Crime: Invest in Kids
Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to submit this written testimony. My 
name is Sanford Newman, and I am the President of Fight Crime: Invest 
in Kids, an anti-crime group of more than 2,000 police chiefs, 
sheriffs, prosecutors and victims of violence from across the country 
who have come together to take a hard-nosed look at what the research 
says works to keep kids from becoming criminals. In considering how to 
reduce child abuse and neglect tragedies, such as that of Sierra 
Swann's children, the Subcommittee faces a formidable and very 
important task. I hope my testimony will help this Subcommittee make 
choices that will prevent child abuse and neglect, and reduce crime now 
and in the future.
    The members of Fight Crime: Invest in Kids, on the front lines of 
fighting crime, know that that there is no substitute for tough law 
enforcement. However, once a child has become a victim of child abuse 
and neglect, a jail term for the offender cannot replace the innocence 
or the life that is lost.
    On May 11, 2004, Emonney and Emunnea Broadway became yet another 
national tragedy. Both girls, only a month old, were found dead--
victims of child abuse and neglect. The situation that led to Emonney 
and Emunnea's deaths is unfortunately not a rare occurrence in our 
nation. In 2002, the latest year for which data is available, the 
Department of Health and Human Services reported that 896,000 children 
were victims of abuse and neglect, and 1,400 children died. Of these 
1,400 children, 41% died before reaching their first birthday. And over 
half of the children who die from abuse or neglect were previously 
unknown to child protective services.
    Child abuse and neglect is itself often a crime, and it also 
produces a cycle of violence whereby victims of child abuse and neglect 
grow up to become perpetrators of violence. Sierra Swann, a foster 
child, was a victim of child abuse and/or neglect herself. While most 
victimized children will not commit violent crimes later in life, being 
abused or neglected sharply increases the risk that children will 
emerge as violent criminals in their adulthood. When that happens, many 
thousands of additional innocent people become victims. The best 
available research indicates that each year 35,000 additional violent 
criminals and more than 250 murderers will emerge as adults who would 
never have become violent criminals if not for the abuse and neglect 
they suffered as children. But this fact need not become a reality if 
we invest in programs--such as in-home parent coaching--that are proven 
to reduce child abuse and neglect.
    Research has shown that providing in-home parent coaching to at-
risk moms like Sierra Swann can dramatically reduce child abuse and 
neglect. For example, rigorous research published in the Journal of the 
American Medical Association, shows that children of mothers left out 
of the Nurse Family Partnership program (NFP)--an in-home parent 
coaching program through which trained nurses visit single, poor, 
first-time young mothers during and after pregnancy--had five times as 
many substantiated reports of child abuse and neglect as the mothers 
who participated.
[GRAPHIC] [TIFF OMITTED] 99679A.001

    A fifteen year follow up study of NFP participants showed that 
mothers in the program had only one-third as many arrests, and their 
children had half as many arrests compared to those who received no 
services.
[GRAPHIC] [TIFF OMITTED] 99679A.002

    In another study, the Healthy Start program in Hawaii (which is the 
basis for the nationwide Healthy Families in-home parent coaching 
program) succeeded in reducing severe abuse and neglect through in-home 
parent coaching. In at-risk families that received parent-coaching, 
only 2 in 1,000 children were hospitalized for child abuse and neglect 
compared to 13 in 1,000 children from similar at-risk families not 
receiving parent coaching. In other words, failing to provide high-risk 
families with in-home parent coaching makes the children six times more 
likely to be hospitalized for abuse and neglect.
    Currently, only 12,000 eligible mothers are being served by NFP. 
The Healthy Families program serves only 50,000 families. Other in-home 
coaching programs combined still leave at least 500,000 at-risk mothers 
in need of in-home parent coaching. Providing in-home parent coaching 
to all at-risk mothers, like Sierra Swann, means tragedies--such as the 
death of Emonney and Emunnea Broadway--are far less likely to happen.
    The Sierra Swann case highlights a nationwide problem that, if not 
properly addressed, can lead to more crime and even death. However, the 
tragedy does not end there. Child abuse and neglect costs America 
upwards of $80 billion a year. Two-thirds of that is in crime costs 
alone. A study by RAND concluded that the Nurse Family Partnership 
program saved taxpayers four dollars for every dollar spent on the 
program and paid for itself by the time the kids were three years old. 
In an era of soaring budget deficits, we can no longer afford NOT to 
make the needed investment to support a nationwide in-home parent 
coaching effort that would serve nearly a million at-risk mothers 
across the country.
    One word of caution: the President, in his Fiscal Year 2005 budget, 
suggested changing the Title IV-E foster care entitlement into a state 
option capped grant, in order to free up more funds for prevention 
services, such as in-home parent coaching. While well-intentioned, we 
are concerned that implementation of such a proposal would likely be 
counter-productive, and endanger children, because: (1) there are no 
guarantees that under the state option grant ``flexible funding'' plan 
proposed by the Administration, states will actually use the money on 
child abuse prevention services (and, historically, only small 
percentages of mixed-use funding pools tend to go to prevention--the 
vast majority tends to go to addressing the needs of children already 
in the system, also currently underfunded); and (2) there is inadequate 
protection for children who have been abused or neglected and need 
foster care--especially if there is a sudden upsurge in cases, as there 
was during the crack/cocaine epidemic in the late `80s and early `90s.
    In his Fiscal Year 2005 budget, the President also proposed 
increasing the Promoting Safe and Stable Families Program and the Child 
Abuse Prevention and Treatment Act--the two primary federal investments 
specifically addressing child abuse and neglect prevention. 
Congressional passage of the President's proposed increases would be an 
excellent first step. However, even the President's proposed increases 
would leave hundreds of thousands of America's most vulnerable children 
without the services they need.
    Law enforcement leaders know that one of the best ways to reduce 
future crime is to invest in programs that prevent child abuse and 
neglect. Furthermore, studies have shown that in-home parent coaching 
is effective at preventing child abuse and neglect. It is time for 
Congress to get tough on crime by providing the resources needed to 
support in-home parent coaching for all at-risk mothers.

                                 <F-dash>

                                               Justice for Children
                                               Washington, DC 20005
                                                       July 1, 2004
Chairman Wally Herger
Subcommittee on Human Resources
Committee on Ways and Means
1102 LHOB
Washington, DC 20515

Dear Representative Herger and Members of the Subcommittee:

    We commend your initiative in calling this hearing on behalf of 
Maryland's children, spurred by the tragic death of two children in 
Baltimore City.
    Justice For Children, a national child advocacy organization, is 
composed of concerned citizens who share the belief that our community 
must act together to protect abused and neglected children from further 
abuse and to defend every child's right to grow up in a safe and loving 
environment. Justice For Children works together with Children's 
Protective Services and other such agencies for the welfare of these 
children, and, when appropriate, intervenes on behalf of children in 
court or agency actions that have the potential to compound the harmful 
effects of the abuse they have already suffered.
    Since our founding in Houston, Texas in May 1987, Justice For 
Children's accomplishments have been nationally recognized. Our 
achievements have been featured on ABC's Prime Time Live, on the ABC 
Prime-Time documentary ``Crimes Against Children,'' a PBS documentary 
entitled ``Boy Crying, Baby Crying,'' and on Good Morning America, 
Donahue, and HBO. In our effort to expand our commitment to serve as an 
advocate for all abused children, Justice For Children now has chapters 
in Arizona and the District of Columbia.
    Our mission is to raise the consciousness of our society about the 
failure of our governmental agencies to protect victims of child abuse, 
to provide legal advocacy for abused children and to develop and 
implement, on a collaborative basis where possible, a full range of 
solutions that enhance the quality of life for these children. We 
accomplish this mission through intensive case advocacy, providing pro 
bono counsel for children or the protecting parent, court watch, filing 
friend of the court briefs in selected appellate cases, a community 
resource hotline, referrals and community presentations. Our public 
policy recommendations are based on hands-on expertise with abused 
children whose cases that have fallen through the cracks.
    Since the founding of our Washington, D.C. Chapter in 2000, many 
cases of ``system failure'' involving abused children in Maryland have 
been referred to our office for advocacy.
    One of the first cases that came to our attention was that of 
little Collin Horridge. In 2000, when he was nearly one-and-a-half 
years old, Collin's mother brought him and his older sister from Texas 
to live in St. Mary's County, Maryland. She shared a house with a male 
friend with children of his own.
    Collin's father, Eric Horridge, worried about Erica and especially 
Collin: their mother had been abusive to him in the past. When Mr. 
Horridge remembers that when called to speak with the children, he 
sometimes heard her hitting Collin on his head--once using the phone 
receiver. Another time he recalls hearing a crash and then the baby's 
screams after Collin's high chair was tipped over.
    Mr. Horridge has phone records documenting his futile attempts to 
get St. Mary's Co. Department of Social Services (``DSS'') to intervene 
and protect Collin. After many calls, DSS sent a caseworker out to the 
house as a ``courtesy'' to what they obviously thought was a 
``disgruntled'' ex-boyfriend.
    The caseworker gave Collin a cursory check and noted bruising 
around his eye and on his forehead. She reported that this 19-month-old 
baby stated: ``I fell on my toy.'' She never bothered to lift his shirt 
or remove clothing to look at his tummy, buttocks, back or legs. 
Shortly thereafter, Mr. Horridge was informed by DSS that they had 
closed Collin's case and that he should just stop calling them.
    Two weeks later, Mr. Horridge received a telephone call: his son 
was dead. Collin had massive internal injuries as well as over forty-
four old or new wounds and bruises on his small body, according to the 
medical examiner's report. His nose was broken and hanging over to the 
side of his face. A large footprint on his abdomen resulted when the 
mother's friend stepped on him with his full weight of 185 lbs. for 
five seconds--an attempt to ``resuscitate'' the baby as he testified at 
trial (he was tried and acquitted twice).
    St. Mary's County released Collin's body to his mother even though 
she was at that time charged with contributing to his death. She 
immediately cremated his body--effectively doing away with state's 
evidence--and to this day she has possession of his ashes. To this 
date, no one has been held accountable for Collin's brutal death.
    Jervis Finney, Chief Counsel for Maryland Governor Robert Erlich, 
confirmed in writing that Collin's death has never been investigated by 
Maryland Fatality Review Board or by any other state agency.
    At hand of our extensive experience with cases of system failure in 
Maryland as well as in many other states, we have come to recognize the 
patterns and weaknesses that allow children to fall through the cracks.
    I am attaching a document created by the Arizona Chapter of Justice 
For Children called ``Eleven Components of an Effective Child 
Protection System.'' I hope you find them of interest as you continue 
to hold hearings on the failings of the child welfare system in 
America.
    Once again, we thank you for your understanding of the urgent need 
for systemic changes to protect Maryland's children and all children in 
America!
            Respectfully submitted,
                                                        Eileen King
                                                  Regional Director

                                 <F-dash>
  Statement of Matthew E. Melmed, Zero to Three: National Center for 
                     Infants, Toddlers and Families
Mr. Chairman and Members of the Subcommittee:

    I am pleased to submit the following testimony on the safety of 
very young children in foster care on behalf of ZERO TO THREE. My name 
is Matthew Melmed. For the last 9 years I have been the Executive 
Director of ZERO TO THREE. ZERO TO THREE is a national non-profit 
organization that has worked to advance the healthy development of 
America's babies and toddlers for over twenty-five years. I would like 
to start by thanking the Subcommittee for all of their work to ensure 
that our nation's infants are safe. I commend you and the Committee for 
holding hearings on the safety of maltreated children in this country.
    The tragic Baltimore case on which your hearing focuses today 
raises concerns not only about the problems of adolescents growing up 
in the child welfare system, but also about the particular 
vulnerability of very young children and the intergenerational nature 
of abuse and neglect. I know that you have received very able testimony 
on the subject of older children in the system. I would like to address 
the effects of abuse and neglect on infants and toddlers and offer 
recommendations for your consideration as you look at systemic changes 
to the way in which states address child welfare. I also would like to 
describe a promising approach, Court Teams for Change, that helps 
improve the well-being of maltreated infants and toddlers and their 
families and seeks to break the intergenerational transmission of abuse 
and neglect.
    We know from the science of early childhood development that 
infancy and toddlerhood are times of intense intellectual 
engagement.\1\ A child's first years set the stage for all that 
follows. During this time--a remarkable 36 months--the brain undergoes 
its most dramatic development, and children acquire the ability to 
think, speak, learn, and reason. In fact, by age three, roughly 85 
percent of the brain's core structure is formed.\2\ Future development 
in key domains--social, emotional, and cognitive--is based on the 
experiences and relationships formed during these critical years.
---------------------------------------------------------------------------
    \1\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
    \2\ Bruner, C., Goldberg, J. and Kot, V. (1999). The ABC's of early 
childhood: Trends, information and evidence for use in developing an 
early childhood system of care and education. A joint publication of 
Iowa Kids Count and the Iowa Forum for Children and Families.

---------------------------------------------------------------------------
Portrait of Very Young Children in Foster Care

    Infants are the fastest growing category of children entering 
foster care in the United States.\3\ They comprise the largest cohort 
of young children in care--accounting for 1 in 5 admissions.\4\ Twenty-
one percent of all children in foster care were admitted prior to their 
first birthday and 45 percent of all infant placements occurred within 
30 days of the child's birth.\5\
---------------------------------------------------------------------------
    \3\ Dicker, S., Gordon, E., Knitzer, J. (2001) Improving the odds 
for the healthy development of young children in foster care. New York: 
National Center for Children in Poverty.
    \4\ Ibid.
    \5\ Wulczyn, F., Hislop, K., & Harden, B (2002). The placement of 
infants in foster care. Infant Mental Health Journal, 23(5), 454-475; 
Oser, C. & Cohen, J. (2002). America's babies: The ZERO TO THREE Policy 
Center data book. Washington, DC: ZERO OT THREE Press.
---------------------------------------------------------------------------
    Once they have been removed from their homes and placed in foster 
care, infants and toddlers are more likely than older children to be 
abused and neglected and to stay in foster care longer.\6\ Half of all 
babies who enter foster care before they are three months old spend 31 
months or longer in placement <SUP>i</SUP> and they are less likely to 
be reunified with their parents. Thirty-six percent of infants who 
enter care between birth and three months of age are reunified with 
their parents compared to 56 percent of infants who enter care at 10-12 
months of age.\7\
---------------------------------------------------------------------------
    \6\ Wulczyn, F. & Hislop,K. (2002). Babies in foster care: The 
numbers call for attention. ZERO TO THREE Journal, (22) 4, 14-15.
    \7\ Ibid.

---------------------------------------------------------------------------
Developmental Impact of Child Abuse and Neglect on Very Young Children

    The developmental impact of child abuse and neglect is greatest 
among the very young. Infants and toddlers are extremely vulnerable to 
the effects of maltreatment. Its impact on their emotional, 
developmental and physical health can have life-long implications if 
not properly addressed. Research shows that young children who have 
experienced physical abuse have lower social competence, show less 
empathy, have difficulty recognizing others' emotions, are more likely 
to be insecurely attached to their parents, and have deficits in IQ 
scores, language ability, and school performance.\8\ Without 
intervention, by the time these children reach school age, they will 
also likely be at risk for social problems and learning deficits. 
Compounding the problem, one third of the individuals who were abused 
and neglected as children can be expected to abuse their own 
children.\9\
---------------------------------------------------------------------------
    \8\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.
    \9\ National Research Council. (1993). Understanding child abuse 
and neglect. p. 223.
---------------------------------------------------------------------------
    According to one longitudinal study, being abused or neglected as a 
child increased the likelihood of arrest as a juvenile by 59 percent, 
as an adult by 28 percent, and for a violent crime by 30 percent.\10\ 
Abused and neglected children are also more likely to have mental 
health concerns (suicide attempts and posttraumatic stress disorder); 
educational problems (extremely low IQ scores and reading ability); 
occupational difficulties (high rates of unemployment and employment in 
low-level service jobs); and public health and safety issues 
(prostitution in males and females and alcohol problems in 
females).\11\ However, research confirms that the early years present 
an unparalleled window of opportunity to effectively intervene with at-
risk children. And intervening in the early years can lead to 
significant cost savings over time through reductions in child abuse 
and neglect, criminal behavior, welfare dependence, and substance 
abuse. It is critical that child well-being be the first priority in 
all child welfare cases.
---------------------------------------------------------------------------
    \10\ Widom, C., & Maxfield, M. (2001). An update on the ``Cycle of 
Violence'', Research in Brief, Washington, DC: U.S. Department of 
Justice, Office of Justice Programs, National Institute of Justice.
    \11\ Ibid.

Promoting the Health and Well-Being of Infants and Toddlers:
Infant-Toddler Court Teams

    I am going to briefly describe one approach that offers promise by 
building on the existing collaborative approach of the National Council 
of Juvenile and Family Court Judges Model Courts and the expertise of 
ZERO TO THREE: National Center for Infants, Toddlers and Families in 
translating the science of early childhood into resources for parents, 
professionals and policymakers. Multidisciplinary Court Teams, with a 
specific focus on the needs of infants and toddlers, could be a vehicle 
for implementing ZERO TO THREE's policy recommendations, described 
below. By partnering legal expertise with the science of early 
childhood development, these Court Teams could work to raise awareness, 
increase knowledge and skills, and change practice and policy regarding 
the needs of infants, toddlers, and their families involved in the 
judicial system.
    This model envisions Court Teams co-led by a judge and in infant 
mental health/child development expert in partnership with key 
community stakeholders who serve the very youngest children, including 
community leaders, Court Appointed Special Advocate, and guardians ad 
litem. By bringing together the knowledge and skills from the judicial 
system with the training and expertise of the child development field, 
this collaborative, coordinated model has the potential to promote 
child well-being by improving systems, services and funding.
    This Infant-Toddler Court Team model is based on the pioneering 
work of Judge Cindy Lederman and Dr. Joy Osofsky who have partnered to 
develop a groundbreaking effort to address the well-being of infants 
and toddlers involved in the Miami-Dade Juvenile Court. In this court, 
all infants, toddlers and mothers receive screening and assessment 
services. All babies are screened for developmental delays and referred 
for services. A parent-infant therapeutic intervention is available to 
a select number of mothers. An Early Head Start Program connected to 
the court is the nation's first designed specifically to meet the needs 
of maltreated children.
    One factor that makes the Court Teams approach relevant to the 
Baltimore case is the intergenerational nature of many abuse and 
neglect cases. Judge Lederman was motivated to develop this approach 
after observing children who had come into her court as victims of 
abuse and return later as abusive parents. They were unable to be good 
parents because they had never been adequately parented themselves. A 
major goal of the Court Teams project is to break this cycle of abuse 
by giving these young mothers the skills they need to understand and 
respond to their infants and toddlers in a positive way.
    Research is confirming the effectiveness of the approach used in 
the Miami-Dade Juvenile Court. Three years of data in the Miami-Dade 
Juvenile Court show substantial gains in improving parental 
sensitivity, child and parent interaction, and behavioral and emotional 
parental and child responsiveness. The children showed significant 
improvements in enthusiasm, persistence, positive affect and a 
reduction of depression, anger, withdrawal and irritability. There have 
been no further acts of abuse or neglect, and 100 percent of infants 
were reunified with their families.
    One promising intergenerational success story that emerged from the 
Miami-Dade Juvenile Court is that of Katrina. Katrina was removed from 
her home for the first time at the age of 10 for chronic emotional 
neglect. She remained in care for a year and then returned home. Almost 
two years later, Katrina was removed again. She was found to be dirty 
and begging for good and her home was identified by police as a 
frequent site of drug related activities. Katrina went to live with an 
aunt while her younger siblings were placed in foster care. Katrina 
became a child mother. She was living in foster care with her own baby; 
however, at the age of 14 months, her baby was removed from her care. 
She did not understand why her baby couldn't live with her and was 
unable to care for him. Because she was still under the jurisdiction of 
the court as a dependent child, the court would see her on a regular 
basis. The court seemed to think she had the capacity and desire to 
accept services and work with the court in order to have her baby 
return to her care. Six months after her baby was removed, she was 
served with a petition for termination of parental rights. The court 
begged her to go back to school and to agree to live in a foster home, 
she agreed. She enrolled in school and in parenting classes and 
continued to have visitation with her baby. In addition, she was 
receiving individual counseling.
    Katrina and her son Charles (now 2 years, 11 months) appeared for 
an evaluation. Charles was found to be within the extremely low range 
of functioning. During the play session, there was minimal play 
interaction between Katrina and her son. Katrina appeared unable to 
allow Charles to explore and initiate himself. Charles' day care 
teacher expressed frustration with Charles' aggressive behavior. She 
stated that he is active and hits and bites other children. Charles was 
referred to an early intervention program operated by the school for a 
full evaluation for adequate pre-school placement and services. He was 
also referred to the Miami Juvenile Court Early Head Start Program. In 
addition, Charles and Katrina began dyadic therapy initiated by the 
court through its IMHPP program. Katrina continues to come to court and 
is lauded for her accomplishments. She is actively involved in school, 
maintains a B average and wants to become a chef. Reunification with 
Charles appears to be imminent.

ZERO TO THREE's Policy Recommendations

1. Prevent multiple placements for infants and toddlers in foster care.

    In the first year of life, babies need to have the opportunity to 
develop a close, trusting relationship or attachment with one special 
person. The ability to attach to a significant caretaker is one of the 
most important emotional milestones a baby needs to achieve in order to 
become a child who is trusting, confident, and able to regulate their 
own stress and distress. Babies form strong attachments and rely on 
their parents for security and comfort. For babies in foster care, 
forming this secure attachment is difficult. When a baby is removed 
from home, or never has the chance to ``bond'' with a parent (e.g. when 
a baby is placed in foster care immediately after birth), the baby is 
not able to form an attachment or an emotional connection to a parent/
caretaker. Multiple foster care placements present a host of traumas 
for very young children. When a baby faces a change in placement, 
fragile new relationships with foster parents are severed reinforcing 
feelings of abandonment and distrust. Babies grieve when their 
relationships are disrupted and this sadness adversely effects their 
development. Children who have experienced abuse or neglect have an 
even greater need for sensitive, caring and stable relationships. In 
order to prevent placement disruption, foster parents need sufficient 
support and training. They may need assistance in how to read the 
infants' emotional cues as they are often unclear, to understand the 
importance of attachment and how to develop an emotional connection to 
the child, to understand how the infants' prior experience, 
particularly maltreatment and placement experiences, have affected 
them, and to adapt their own parenting styles to meet the unique needs 
of these vulnerable young children.\12\ All placement decisions should 
focus on promoting security and continuity for infants and toddlers in 
out-of-home care.
---------------------------------------------------------------------------
    \12\ Clyman, R., Harden, J., & Little, C. (2002). ``Assessment, 
intervention and research with infants in out-of-home placement.'' 
Infant Mental Health Journal, 23(5), 435-453.

---------------------------------------------------------------------------
2. Use evidence based models to prevent child abuse and neglect.

    Abuse and neglect during the first years can have serious 
consequences on later developmental outcomes. Research shows that young 
children who have experienced physical abuse have lower social 
competence, show less empathy for others, have difficulty recognizing 
others' emotions, are more likely to be insecurely attached to their 
parents, and have elevated rates of aggression, apparent even in 
toddlers. They have been found to have deficits in IQ scores, language 
ability, and school performance. In addition, young children who are 
victims of physical abuse may experience psychosomatic disorders, 
anxiety, fears, sleep disruption, excessive crying, and school 
problems. By the time these children reach school age, they will be at 
risk for social problems and learning deficits. Compounding the 
problem, one-third of the individuals who were abused and neglected as 
children, without intervention, can be expected to abuse their own 
children.\13\ Research on model programs reveals that well-designed 
services with explicitly defined goals can be effective in changing 
parenting practices and influencing parent-child interactions.\14\ It 
is clear, therefore, that prevention is a critical strategy for 
protecting at-risk babies and their families.
---------------------------------------------------------------------------
    \13\ National Research Council. (1993). Understanding child abuse 
and neglect. p. 223.
    \14\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development. Washington, 
DC: National Academy Press.

3. Assure comprehensive, developmentally Appropriate Health Care for 
---------------------------------------------------------------------------
        infants and toddlers in foster care.

    Nearly 40 percent of young children in foster care are born low 
birthweight, premature, or both, two factors that increase their 
likelihood of medical problems and developmental delay.\15\ They are 
more likely to have fragile health and disabilities and far less likely 
to receive services that address their needs.\16\ More than half of 
these children suffer from serious health problems, including elevated 
lead blood-levels, and chronic diseases such as asthma.\17\ Sadly, a 
significant percentage of children in foster care do not receive even 
basic health care, such as immunizations, dental services, hearing and 
vision screening, and testing for exposure to lead and communicable 
diseases.
---------------------------------------------------------------------------
    \15\ Halfon, N.; Mendonca, A.; & Berkowitz, G. (1995) ``Health 
status of children in foster care: The experience of the Center for the 
Vulnerable Child.'' Archives of Pediatric and Adolescent Medicine, 
149(4), 386-391.
    \16\ Dicker, S., Gordon, E., & Knitzer, J. (2001). Improving the 
odds for the healthy development of young children in foster care. New 
York: National Center for Children in Poverty. Oser, C. and Cohen, J. 
(2003). Improving early intervention: Using what we know about infants 
and toddlers with disabilities to reauthorize Part C of IDEA. 
Washington, DC: ZERO TO THREE Policy Center.
    \17\ Halfon, N.; Mendonca, A.; & Berkowitz, G. (1995) ``Health 
status of children in foster care: The experience of the Center for the 
Vulnerable Child.'' Archives of Pediatric and Adolescent Medicine, 
149(4), 386-391.

4. Ensure access of infants and toddlers referred to child protective 
        services to the Early Intervention Program (``Part C'') of the 
---------------------------------------------------------------------------
        federal Individuals with Disabilities Education Act (IDEA).

    Infants and toddlers in foster care are more likely to have fragile 
health and disabilities and are far less likely to receive services 
that address their needs.\18\ They may show signs of delays in language 
acquisition, cognition and behavior. In fact, infants and toddlers in 
foster care have rates of developmental delay approximately 4 to 5 
times that found among children in the general population.\19\ 
Therefore, there must be a strong connection between the child welfare/
child protection systems and Part C to ensure early access to services 
will provide significant benefits to children. The National Research 
Council/Institute of Medicine recommends that infants and toddlers who 
are referred to a protective services agency for evaluation of 
suspected abuse or neglect be automatically referred for a 
developmental-behavioral screening under Part C.\20\
---------------------------------------------------------------------------
    \18\ Dicker, S., Gordon, E., Knitzer, J. (2001) Improving the odds 
for the healthy development of young children in foster care.  New 
York: National Center for Children in Poverty.
    \19\ Dicker, S. & Gordon, E. (2000). Connecting healthy development 
and permanency: A pivotal role for child welfare professionals. 
Permanency Planning Today, 1(1) 12-15.
    \20\ Shonkoff, J., & Phillips, D. (Eds.). (2000). From neurons to 
neighborhoods: The science of early childhood development.  Washington, 
DC: National Academy Press.
---------------------------------------------------------------------------
    A provision of The ``Keeping Children and Families Safe Act of 
2003'' that amended the Child Abuse Prevention and Treatment Act 
(CAPTA) (PL 108-36) requires that each state develop ``provisions and 
procedures for referral of a child under the age of 3 who is involved 
in a substantiated case of child abuse or neglect to early intervention 
services funded under Part C of the Individuals with Disabilities 
Education Act (IDEA) (section 106(b)(2)(A)(xxi)).'' Although this new 
requirement is a step in the right direction, states will face new 
challenges in trying to ensure that the Part C system is able to 
respond to these new referrals. Impacts will vary substantially from 
state to state because of significant differences among states' Part C 
systems. In some states, very large increases in workload for providers 
of Part C evaluation, assessment and intervention services are likely 
as a result of this legislation. In all states, a need to enhance the 
capacity of the Part C system to respond to social-emotional and 
behavioral problems (early childhood mental health) is likely. And in 
most or all states, the cost of responding to this federal mandate will 
be a problem, given very tight state budgets, unless the federal 
government significantly increases funding for Part C.

5. Assure early childhood mental health assessment and access to early 
        childhood mental health services for babies and toddlers in 
        foster care.

    Early childhood mental health is the capacity of the child from 
birth to age 5 to experience, regulate and express emotions; form close 
and secure interpersonal relationships; and explore the environment and 
learn. Early childhood mental health is synonymous with healthy social 
and emotional development. Because maltreatment and repeated and often 
traumatic separation from caregivers may place infants and toddlers in 
foster care at risk for mental health disorders, mental health supports 
for babies in foster care, their birth families, and their foster care 
families is critical. Untreated mental health disorders in early 
childhood can have disastrous effects on children's functioning and 
future outcomes.
    There is an enormous disconnect between what we know about very 
young children and their mental health, and what we do for very young 
children in the child welfare system. Over the past 20 years, much has 
been learned about the mental health of young children in foster care 
and how to provide early childhood mental health services. However, 
this knowledge has not reached the child welfare system. Early 
childhood mental health expertise, providers, and services for infants 
and toddlers in the child welfare system as well as in other systems 
(Part C early intervention, child care, Early Head Start) is non-
existent and the need is severe! In addition to improving mental health 
aspects of the child welfare system, training for mental health and 
other early childhood providers is needed. It is critical that early 
childhood providers understand not only the unique needs of infants and 
toddlers, but also, the unique needs of very young children who have 
been victims of abuse/neglect and who have been separated from their 
families. These early childhood mental health services should be 
integrated and delivered via early learning experiences at home, in 
center-based programs, or both. Federal and State policy must support 
early identification, screening and evaluation of emotional 
development, improving the service array for diagnosis, treatment and 
prevention of early mental health problems, and increasing mental 
health supports for parents and foster parents in the existing child 
welfare system and other systems that serve these children.

6. Ensure that infants and toddlers in foster care have access to 
        quality early care and learning experiences.

    Infancy and toddlerhood are times of intense growth and development 
in all areas, including rapid changes in motor development, cognition, 
and emotions.\21\ All babies and toddlers need positive early learning 
experiences to foster their intellectual, social and emotional 
development and to lay the foundation for later school success. Infants 
and toddlers who have been abused or neglected, and are at increased 
risk for adverse outcomes as a result, need additional supports to 
promote their healthy growth and development. Quality early learning 
experiences can provide very young children in foster care the 
opportunity to form secure attachments with teachers and/or child care 
providers who can provide consistent, positive environments. Early 
childhood training programs that promote small groups, continuity, and 
individualized care, such as the Program for Infant Toddler Caregivers 
(PITC), can help young children who have been abused and neglected 
develop these essential early relationships. These early relationships 
are associated with adaptive social development.\22\
---------------------------------------------------------------------------
    \21\ Lederman, C., Osofsky, J., & Katz, L. (2001). When the bough 
breaks the cradle will fall: Promoting the health and well being of 
infants and toddlers in juvenile court. Juvenile and Family Court 
Journal, (52)4, 33-37.
    \22\ Lederman, C., Osofsky, J., & Katz, L. (2001). When the bough 
breaks the cradle will fall: Promoting the health and well being of 
infants and toddlers in juvenile court. Juvenile and Family Court 
Journal, (52)4, 33-37.
---------------------------------------------------------------------------
    High-quality early care and education programs can also support 
foster, kinship, and biological parents by directing them to other 
support systems, providing information, and connecting them with other 
parents that they may turn to for advice and support.\23\ Comprehensive 
early childhood programs, such as Early Head Start, that combine home 
visitation, comprehensive services and technical assistance, can 
provide the specialized services that very young children in the child 
welfare system need. In addition, therapeutic child care programs that 
address issues faced by abused and neglected children, such as 
attachment disorders and depression, can ensure that these young 
children are receiving specialized treatment and attention.
---------------------------------------------------------------------------
    \23\ Dicker, S., Gordon, E., & Knitzer, J. (2001). Improving the 
odds for the healthy development of young children in foster care.  New 
York: National Center for Children in Poverty.

7. Ensure developmentally appropriate visitation practices for infants 
---------------------------------------------------------------------------
        and toddlers in foster care.

    One of the major challenges faced by young children in foster care 
is maintaining attachment relationships with their parents. In order 
for young children in foster care to maintain attachment relationships 
with their biological parents, parental visitation schedules are 
developed by the social worker in conjunction with the court and the 
biological parents. Foster parents are expected to cooperate with the 
child's visitation plan to help with transportation to and from the 
visits. Current visitation practices usually consist of brief 
encounters that occur anywhere from once a month to once or twice a 
week. For very young children, infrequent visits are not enough to 
establish and maintain a healthy parent-child relationship. Infants and 
toddlers build strong attachments to their biological parents through 
frequent and extended contact. One month in the life of a baby is an 
eternity. Visits should occur frequently, in a safe setting that is 
comfortable for both parent and child, and should last long enough for 
a positive relationship to develop and strengthen. For very young 
children, visits with parents can be upsetting and disruptive to their 
development.

8. Assure ongoing adoption services and supports for adoptive families.

    Adoptive parents often face significant challenges in the day-to-
day parenting of very young children. Foster children who have been 
adopted tend to have challenging behaviors and emotional issues as well 
as medical conditions that may impact their development--often due to a 
history of maltreatment and extended stays in foster care. Adoptive 
families facing this kind of stress are at increased risk of adoption 
failure--referred to as disruption before an adoption is legalized and 
as dissolution after an adoption has been finalized.\24\ Services and 
supports for the family prior to, during, and after the adoption can 
help to stabilize and preserve adoptive placements and can help in 
recruiting adoptive parents.\25\ The assurance of the availability of 
services and supports after adoption has been found to play a critical 
role in many potential adoptive parents' decisions to move forward with 
the adoption of a child in foster care.\26\ These supports may also 
reduce the likelihood of adoption disruption and are cost-effective as 
they help prevent the child from reentering foster care.
---------------------------------------------------------------------------
    \24\ National Conference of State Legislatures. (2002). Post-
Adoption Services: Issues for Legislators. Retrieved February 26 from 
http://www.ncsl.org/programs/cyf/PASI.htm.
    \25\ Casey Family Services. (2001). Strengthening Families and 
Communities: An Approach to Post-Adoption Services. Casey Family 
Services.
    \26\ Ibid.

---------------------------------------------------------------------------
Conclusion

    We must ensure that infants in the child welfare system are healthy 
and safe. During the first years of life, children rapidly develop 
foundational capabilities--cognitive, social and emotional--on which 
subsequent development builds. The amazing growth that takes place in 
the first three years of life creates vulnerability and promise for all 
children. These years are even more important for maltreated infants 
and toddlers. We know from the science of early childhood development 
what infants and toddlers need for healthy social, emotional and 
cognitive development. We also know that infants and toddlers in the 
child welfare system are at great risk for poor outcomes. We must 
continue to seek support for services and programs that ensure that our 
nation's youngest and most vulnerable children are safe and that 
promote and improve their emotional, social, cognitive and physical 
health and development.
    It is simply unacceptable that we wait until the safety of very 
young children is put at-risk before proper investments are made to 
address their needs. We cannot wait for an infant in the child welfare 
system to die before we provide states with adequate funds to ensure 
the safety, permanence and well-being of children in or at risk of 
needing foster care. Policies and funding must be directed to 
preventing harm to maltreated young children. I urge the Subcommittee 
to make the investment to ensure that the current ill-equipped child 
welfare system receives adequate funding to better protect our nation's 
most vulnerable children.
    Thank you for your time and for your commitment to our nation's at-
risk infants and toddlers.

                                 <all>

</pre></body></html>
